<html>
<title> - S. 2205, S. 2421, S. 2564, AND S. 2717</title>
<body><pre>[Senate Hearing 114-326]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 114-326
 
                 S. 2205, S. 2421, S. 2564, AND S. 2717

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                                   ON

     S. 2205, A BILL TO ESTABLISH A GRANT PROGRAM TO ASSIST TRIBAL 
GOVERNMENTS IN ESTABLISHING TRIBAL HEALING TO WELLNESS COURTS, AND FOR 
                             OTHER PURPOSES

 S. 2421, A BILL TO PROVIDE FOR THE CONVEYANCE OF CERTAIN PROPERTY TO 
THE TANANA TRIBAL COUNCIL LOCATED IN TANANA, ALASKA, AND TO THE BRISTOL 
  BAY AREA HEALTH CORPORATION LOCATED IN DILLINGHAM, ALASKA, AND FOR 
                             OTHER PURPOSES

    S. 2564, A BILL TO MODERNIZE PRIOR LEGISLATION RELATING TO DINE 
     COLLEGE; S. 2643, A BILL TO IMPROVE THE IMPLEMENTATION OF THE 
   SETTLEMENT AGREEMENT REACHED BETWEEN THE PUEBLO DE COCHITI OF NEW 
       MEXICO AND THE CORPS OF ENGINEERS, AND FOR OTHER PURPOSES

    S. 2717, A BILL TO IMPROVE THE SAFETY AND ADDRESS THE DEFERRED 
    MAINTENANCE NEEDS OF INDIAN DAMS TO PREVENT FLOODING ON INDIAN 
                  RESERVATIONS, AND FOR OTHER PURPOSES

                               __________

                             APRIL 13, 2016

                               __________

         Printed for the use of the Committee on Indian Affairs
         
         
         
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
 
 
 
 
                   U.S. GOVERNMENT PUBLISHING OFFICE
                  
 21-180 PDF                 WASHINGTON : 2016       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001  
 
         
         


                      COMMITTEE ON INDIAN AFFAIRS

                    JOHN BARRASSO, Wyoming, Chairman
                   JON TESTER, Montana, Vice Chairman
JOHN McCAIN, Arizona                 MARIA CANTWELL, Washington
LISA MURKOWSKI, Alaska               TOM UDALL, New Mexico
JOHN HOEVEN, North Dakota            AL FRANKEN, Minnesota
JAMES LANKFORD, Oklahoma             BRIAN SCHATZ, Hawaii
STEVE DAINES, Montana                HEIDI HEITKAMP, North Dakota
MIKE CRAPO, Idaho
JERRY MORAN, Kansas
     T. Michael Andrews, Majority Staff Director and Chief Counsel
       Anthony Walters, Minority Staff Director and Chief Counsel
       
       
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 13, 2016...................................     1
Statement of Senator Barrasso....................................     1
Statement of Senator Daines......................................     6
Statement of Senator Flake.......................................     9
    Prepared statement...........................................    10
Statement of Senator Franken.....................................     8
Statement of Senator McCain......................................     2
Statement of Senator Murkowski...................................     7
Statement of Senator Tester......................................     3
Statement of Senator Udall.......................................     3

                               Witnesses

Ahumada, Martin M., Interim President, DineCollege...............    24
    Prepared statement...........................................    26
Black, Michael S., Director, Bureau of Indian Affairs, U.S. 
  Department of the Interior.....................................    11
    Prepared statement...........................................    12
Clark, Robert J., President/CEO, Bristol Bay Area Health 
  Corporation....................................................    31
    Prepared statement...........................................    31
Day, Hon. Paul W., Chief Judge, Leech Lake Band of Ojibwe........    21
    Prepared statement...........................................    23
Garcia, Hon. Nicholas, Governor, Pueblo de Cochiti, New Mexico...    17
    Prepared statement...........................................    19
Roberts-Hyslop, Julie, Vice Chair, Tanana Tribal Council.........    29
    Prepared statement...........................................    29

                                Appendix

Letters of support, submitted for the record 




                 S. 2304, S. 2468, S. 2580, AND S. 2711

                              ----------                              


                       WEDNESDAY, APRIL 13, 2016


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:20 p.m. in room 
628, Dirksen Senate Office Building, Hon. John Barrasso, 
Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    The Chairman. Good afternoon. I call this hearing to order.
    The Committee had scheduled a business meeting to consider 
authorizing the issuance of a subpoena of Gina McCarthy, the 
Administrator of the Environmental Protection Agency. Under the 
Committee rules a subpoena may be authorized upon agreement of 
the Chair and the Co-Chair or the Vice Chair or by a majority 
vote of the Committee.
    Vice Chairman Senator Tester and I have agreed today to 
authorize issuing a subpoena to Administrator McCarthy or her 
Assistant Administrator Mathy Stanislaus to attend. I want to 
thank Vice Chairman Tester for his support in securing a 
witness to the hearing.
    However, it troubles me that this Committee had to take the 
extraordinary step of issuing a subpoena to a confirmed Federal 
official. During the confirmation process, Gina McCarthy agreed 
under oath that if confirmed, she would appear before 
congressional committees with respect to her responsibilities. 
She further agreed under oath to ensure testimony and other 
documents would be provided to congressional committees in a 
timely manner.
    Despite this sworn testimony, the EPA refused to provide 
any witnesses, any witnesses, to the Committee field hearing to 
be held on April 22, 2016 in Phoenix, Arizona. That hearing 
would continue our oversight on the EPA's response to the 
devastating toxic spill that it caused and the agency's 
responsibility to the Indian communities it had harmed.
    I am further troubled that the EPA would disregard such 
failures and attempt to avoid the responsibility by refusing to 
appear before the Committee and answer questions. This sort of 
behavior is unbecoming of any Federal official and will not be 
tolerated.
    The subpoena will be served on the EPA later today. With 
that, I look forward to a productive and meaningful hearing in 
Phoenix on April 22. Does any member want to make a statement 
before we discuss today's legislative hearing?
    Senator McCain. Mr. Chairman, I would.
    The Chairman. Senator McCain.

                STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    Senator McCain. Thank you and Vice Chairman Tester for your 
cooperation on this issue. It is kind of remarkable that we 
have to go through this kind of gyration.
    I noted a letter sent back to you by a person in the office 
of Congressional and Intergovernmental Relations. The letter, 
in part, states, ``Further, we understand the Committee is 
likely to have questions regarding the agency's response to the 
Gold King Mine incident.''
    That they regard this disaster as an ``incident'' is kind 
of reveals the EPA's sense of dimensions of this disaster and 
their attitude towards it, which, as you mentioned, there is no 
question about who caused this devastation to the Navajo 
Nation. That was individuals at the EPA.
    In response, we get, ``We understand the Committee is 
likely to have questions regarding the agency's response to the 
Gold King Mine incident.'' No, it is not about the agency's 
response to the ``incident,'' it is about the circumstances 
concerning the disaster and what needs to be done to remedy and 
try to compensate the people and make the lives of the people 
who have been contaminated by this disaster better.
    Also, by the way, they offered up, as you know, one 
individual who since has resigned. I am not sure that would be 
exactly what we had in mind.
    I thank the Chairman and Vice Chairman for their 
cooperation. I do not need to outline to members of this 
Committee or describe to them our obligation to our Native 
Americans. That is what this Committee is all about.
    When there is a disaster caused by another agency of 
government, then we get this kind of response, that we are 
forced to subpoena, there is something really out of whack 
here. I want to thank you.
    By the way, I also want to welcome the Chancellor of Dine 
College. I thank my colleague, Senator Flake, for sponsoring 
this bill which I am proud to join him in the issue concerning 
the best way we can help Din College provide a quality 
education on the Navajo reservations.
    Thank you again, Mr. Chairman. Honestly, sometimes after 
all these years, the arrogance of bureaucracy continues to 
surprise me.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator McCain.
    Would anyone else like to comment specifically on this 
issue before proceeding to the specifics of the hearing?
    Senator Udall. I would defer to Senator Tester.

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. I would like to say I think through the 
good work of the Chairman, I mean that, and the good 
communication we have, we were able to get the outcome that I 
think we wanted.
    Did the agency make a mistake? Absolutely. They could have 
done better. We maybe could have done better, but the bottom 
line is that there Superfund sites all over this Country that 
need attention. Senator Daines and I have several in the State 
of Montana.
    It is for a different conversation and a different 
committee, but I do think we need to figure out a way that we 
can actually empower the EPA to get some of these things 
cleaned up so we do not have the kind of disasters we had in 
the southwestern part of this Country.
    I just wanted to express my appreciation ultimately for 
you, Senator Barrasso, and the good working relationship that 
we have. I very much appreciate that.
    The Chairman. Thank you.
    Anyone else? Senator Udall?

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you very much, Chairman Barrasso.
    Let me echo what has been said. I think it is very 
important that both the Chairman and the Vice Chairman work 
together and work through these issues. As Senator McCain said, 
this is a disaster. It is a very, very important issue to the 
Navajo Nation, to people who live off the Navajo Nation, who 
live on the Animas River and the San Juan River.
    I think it is important that we all work together to get to 
the meat of what is going on here that there has been a 
disaster and it has had a big impact. We need the EPA to be 
working with us to make sure we make this right.
    I am glad the Committee is doing this field hearing. I am 
glad we were able to reach a resolution where the EPA is 
testifying. I agree that someone senior from the EPA needs to 
attend this hearing. I believe that 100 percent and have made 
it clear to the EPA several times.
    Everyone should know Administrator McCarthy visited New 
Mexico after the spill and disaster. I would like her to go 
back and help us improve on the recovery progress but I am glad 
the EPA has offered to send two senior level witnesses for what 
I hope will be a very productive hearing in Senators McCain and 
Flake's State.
    Thank you very much, Mr. Chairman.
    The Chairman. Thank you, Senator Udall.
    If no one else wants to make a statement, let us head to 
the bills before us today. We are going to examine five bills: 
S. 2205, The Tribal Healing to Wellness Courts Act of 2015; S. 
2421, A Bill to Provide for the Conveyance of Certain Property 
to the Tanana Tribal Council and to the Bristol Bay Area Health 
Corporation and for other purposes; S. 2564, the Dine College 
Act of 2016; S. 2643, the Pueblo de Cochiti Self Governance 
Act; as well as S. 2717, the Dam Repairs and Improvements for 
Tribes Act of 2016.
    All of these bills address specific concerns for American 
Indian and Alaska Native communities. I will turn to the bill 
sponsors for statements on these bills in a moment.
    On October 22, Senators Tester and Franken introduced S. 
2205, the Tribal Healing to Wellness Courts Act of 2015. This 
bill would authorize grants for tribal healing to wellness 
courts to reduce recidivism among tribal members.
    On December 17, 2015, Senators Murkowski and Sullivan 
introduced S. 2421. This bill would direct the Secretary of the 
Department of Health and Human Services to convey certain 
properties to the Tanana Tribal Council and the Bristol Bay 
Area Health Corporation. Both properties described in S. 2421 
will continue to be used to improve health care services in 
their respective tribal communities.
    On February 23, 2016, Senator Flake introduced S. 2564, 
along with Senators Heinrich, McCain, and Udall. This bill 
would authorize certain grants for capital improvements for the 
Dine College, located on the Navajo Reservation.
    On March 7, 2016, Senator Udall introduced S. 2643, the 
Pueblo de Cochiti Self-Governance Act. The bill so amends the 
Cochiti Wetfields Settlement Agreement to authorize the 
transfer, operation and maintenance responsibilities for the 
Cochiti Dam Drainage System from the Federal Government to the 
Pueblo.
    On March 17, 2016, Senator McCain and I introduced S. 2717, 
the Dam Repairs and Improvements for Tribes Act of 2016 also 
known as the DRIFT Act. This important piece of legislation 
would address the safety of dams and flood prevention needs 
across Indian Country.
    According to the Bureau of Indian Affairs, there are 137 
high-hazard dams in 42 reservations and over 700 low-hazard 
dams across the United States. The United States has a trust 
obligation to maintain and operate these dams and prevent what 
could be a future dam failure.
    Most of the high-hazard dams are in the Western United 
States, including two high-hazard dams on the Wind River 
Reservation in my home State of Wyoming, the Washakie and Ray 
Lake Dams.
    On average, these BIA dams are 70 to 80 years old. 
According to BIA officials, these dams have an estimated 
maintenance backlog of over $500 million in deferred 
maintenance needs. Current funding is not keeping up with the 
maintenance needs of these dams.
    The DRIFT Act would require the Assistant Secretary for 
Indian Affairs, in consultation with the Secretary of the Army, 
to address the maintenance backlog of BIA dams by creating a 
High-Hazard Indian Dam Safety Deferred Maintenance Fund and a 
Low-Hazard Indian Dam Safety Deferred Maintenance Fund.
    The high-hazard fund would receive $22,750,000 each year 
for fiscal years 2017 through 2037. The low-hazard fund would 
receive $10,000,000 for the same time period.
    Neglecting the deferred maintenance needs of these low-
hazard dams may result in them becoming high hazard dams in the 
near future. The DRIFT Act establishes funding priorities based 
on criteria such as threats to public safety, natural or 
cultural resources, and economic concerns. The legislation also 
seeks to make other important flood prevention and dam safety 
policy reforms for both the BIA and the U.S. Army Corps of 
Engineers.
    The DRIFT Act is also intended to address additional 
improvements and safety concerns by establishing a four year 
pilot program for a BIA flood mitigation program for tribes; 
establishing a Tribal Safety of Dams Committee within the 
Department of the Interior to make recommendations to Congress 
for modernizing the Indian Dam Safety Act; requiring tribes 
regularly report their dam inventory to BIA; requiring the BIA 
to report annually on the safety status of their dams to 
Congress; and authorizing reforms to the U.S. Army Corps of 
Engineers' Tribal Partnership Program for tribal cost-share 
requirements for feasibility studies among other provisions.
    The threat to public safety in and around Indian Country is 
a serious concern. It is critical that we make these necessary 
changes to ensure that tribes and surrounding communities are 
protected. We need to move this legislation as expeditiously as 
possible and get it signed into law.
    At this time, I would like to turn to other members of the 
Committee who have opening statements and would like to discuss 
pieces of specific legislation they may have authored.
    I welcome Senator Flake to the Committee, but let me first 
turn to the Vice Chairman of the Committee, Senator Tester.
    Senator Tester. Thank you, Mr. Chairman.
    I want to thank all the panelists for being here today.
    I want to say a few words about a piece of legislation in 
today's hearing, S. 2205, the Tribal Healing to Wellness Courts 
Act of 2015. I introduced this legislation in October along 
with Senator Franken. It is a simple bill that authorizes a 
dedicated funding stream to tribal healing to wellness courts. 
These healing courts, which are similar to the drug courts, 
provide alternative sentencing in lieu of incarceration.
    Drug courts have had an incredible result in reducing 
recidivism among offenders. American Indian and Alaska Natives 
are significantly over-represented in both Federal and State 
prison populations. Worse, according to the U.S. Sentencing 
Commission in 2013, Native American offenders were sentenced to 
prison at a higher rate than all other offenders.
    In addition to reducing recidivism, there are economic 
incentives to these types of courts. According to an analysis 
by the Urban Institute, current adult drug court systems 
produce about $2.21 in benefits for every $1 in cost for a net 
benefit to society of about $624 million.
    This legislation would support tribes and tribal 
communities by providing them with an alternative to prison. 
These programs have proven to be effective and cost saving. It 
seems like commonsense to me that if there is a program that 
works, we should make more investments in those kinds of 
programs.
    While I believe rehabilitation is an integral component of 
reducing drug use and drug-related crime, we must also give the 
necessary tools to tribes to protect their communities. That is 
why yesterday, I introduced the Tribal Youth and Community and 
Protection Act.
    This Act would allow tribes to prosecute anyone who commits 
a drug offense on tribal lands. We have all seen how criminal 
activity on tribal lands can go unpunished due to the maize of 
jurisdictions that includes tribes, States and Federal 
authorities.
    This bill would make it easier for tribes to hold criminals 
accountable for their actions. The Tribal Youth and Community 
Protection Act follows one of the key recommendations of the 
Indian Law and Order Commission to restore tribal authority to 
prosecute criminal activity that occurs on their lands. The 
bill was based on feedback from the tribes utilizing their 
jurisdiction under VALA and I hope to hear more comments from 
tribes on how to improve the bill even further.
    I look forward to working with my colleagues on this 
Committee and in the Senate on that bill and the Wellness Court 
bill which we are discussing today. I look forward to hearing 
from our witnesses today and thank each and every one for the 
work you do in Indian Country. It is significant and very much 
appreciated.
    Thanks again, Mr. Chairman.
    The Chairman. Thank you, Senator Tester.
    Senator Daines?

                STATEMENT OF HON. STEVE DAINES, 
                   U.S. SENATOR FROM MONTANA

    Senator Daines. Thank you, Mr. Chairman and thanks for your 
work on the DRIFT Act as well. Supporting tribal infrastructure 
and needs is crucial to upholding the U.S. Government's trust 
responsibility to Indian tribes. I am glad we are discussing 
that here today.
    Unfortunately, there are 20 dams in Montana currently 
classified as high and significant hazard dams on Indian 
reservations across our State. The possible failure of these 
dams creates the potential for loss of human life and property 
damage. Tribes cannot afford to suffer these consequences.
    There are two cases in point. First, the Crow Dam on the 
Flathead Reservation has what the Department of Interior 
describes as ``an unacceptably high probability of failure due 
to spillway erosion which would likely result in the release of 
the entire reservoir.''
    Second, the Four Horns Dam on the Blackfeet Reservation 
currently has at least seven potential failure modes and to 
mitigate risk to the surrounding community, the dam is 
currently is currently under restricted condition.
    Without these precautions, two additional failure modes 
would present further public safety risk. These dams form a 
significant part of water resources and trust assets for Indian 
reservations.
    I appreciate Senator Barrasso's efforts to address tribal 
dam maintenance backlog through the DRIFT Act. I remain eager 
to continue working with the Administration and my colleagues 
to address these critical infrastructure needs in Indian 
Country.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Daines.
    Senator Udall?
    Senator Udall. Thank you, Chairman Barrasso. Thank you to 
all the witnesses here today.
    I want to particularly thank the Chairman and Vice Chairman 
for including the Pueblo de Cochiti Self Governance Act in 
today's hearing. Let me also recognize Governor Garcia who is 
here with us today and former Governor Suina and Lieutenant 
Governor Herrera who are here supporting him in the audience. 
Thank you for making the trip.
    This is really a straightforward bill. It would allow 
Cochiti Pueblo to acquire State trust lands adjacent to the 
Pueblo and restore its ancestral homelands. It is supported by 
nearby landowners and governments and the land will not be used 
for gaming.
    The change will allow the State of New Mexico to acquire 
other land where it can earn revenue. I will briefly explain 
the purpose of the bill.
    Several decades ago, the Federal Government flooded the 
Cochiti Pueblo's ancestral land to build the Cochiti Dam. To 
settle damage claims by the Pueblo and to address seepage 
issues from the dam, the government later built a drainage 
system and provided $4.5 million for its operation and 
maintenance.
    The balance has increased to roughly $6.6 million in 2014; 
meanwhile, maintenance has cost about $87,000 a year. This bill 
would allow the Pueblo to access those funds to buy back the 
ancestral homelands.
    The Pueblo has worked with all stakeholders: the Army Corps 
of Engineers, the Interior Department and the State of New 
Mexico. The bill would also end Federal liability for the 
operation and maintenance of the drainage system. I will let 
Governor Garcia further explain this in testimony and look 
forward to the questioning.
    I also want to address another bill before this Committee 
today. I was proud to join Senators Flake, Heinrich and McCain 
in introducing legislation to reauthorize Dine College. I want 
to thank Dr. Ahumada, interim President of Dine College, for 
being here.
    I also look forward to working with this Committee to see 
that bill gets through the process and is passed. It is an 
important part of the commitment we all share to students 
across Indian Country to ensure they have strong opportunities 
to reinforce their connection to Native language and culture 
and to get an excellent education and move up.
    With that, thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Udall.
    Senator Murkowski?

               STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman.
    I would like to thank you and the Ranking Member for 
ensuring that we have two bills before the Committee this 
afternoon, the Tanana Tribal Council and the Bristol Bay Area 
Health Corporation land transfers.
    These are important bills in these specific regions up in 
the interior and in Bristol Bay that will help increase access 
to much needed health care to Alaska Natives and non-Natives in 
both regions. I am hopeful that the Administration will 
continue its support of both efforts in this proposal.
    As you well know, I have spoken many times in this 
Committee about the fact we face many barriers in the State as 
it relates to offering quality and affordable health care. One 
of these barriers is proximity.
    The community of Tanana is located on the Yukon River in 
interior Alaska. It is an isolated community, one that is 
accessible by plane or by boat. It is a long boat ride or you 
can take a pretty long and oftentimes very dangerous snow 
machine ride in the winter but it makes access to health care 
particularly difficult.
    When someone is injured or sick, the cost of a medevac can 
be as much as $30,000 to be flown into Fairbanks or Anchorage. 
It is just not sustainable, so we need to do all that we can to 
help our tribes to provide the best health care possible 
whenever possible within their communities.
    The Committee has also heard me mention the youth of 
Tanana. There is a group of you people associated with the 4-H 
there that have really stood out in their community and said, 
we want a healthier community. Help us with that.
    One of the provisions in the bill before us today with the 
transfer to the Tanana area is to provide for a wellness 
center. The Tanana Tribal Council is looking to have a wellness 
center.
    I would like to thank Julie Roberts-Hyslop who is from 
Tanana. She is here today. She served on the Tanana Tribal 
Council and is Vice President of the Regional Organization of 
Tanana Chiefs Conference, a real leader within the region.
    I appreciate so much, Julie, that you have made this long 
trip to be here to speak on this very important legislation.
    Behind her, we also have Robert Clark, the President and 
CEO of the Bristol Bay Area Health Corporation. BBAHC is 
located in Dillingham, Alaska. They deal with many of the same 
barriers as Tanana.
    This legislation is needed to allow BBAHC to expand dental 
care for more than 8,000 people within their service region. 
Think about that, dental care for 8,000 people in an area where 
services have been limited.
    The health facilities in Dillingham, operated by BBAHC, are 
the hub for many, many surrounding communities and are vital to 
health in the region. I would like to thank you, Robert, also 
for making the long trek and being here.
    Again, Senator Barrasso and Senator Tester, thank you for 
the opportunity to present both of these measures before the 
Committee.
    The Chairman. Thank you, Senator Murkowski.
    Senator Franken?

                 STATEMENT OF HON. AL FRANKEN, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Franken. Thank you, Mr. Chairman and Vice Chairman 
Tester for holding this legislative hearing taking up the 
Tribal Healing and Wellness Courts bill. I want to thank all 
the witnesses testifying here today.
    I am honored to introduce Judge Paul Day of the Leech Lake 
Band of the Ojibwe as a witness today. On December 14, 2012, 
Judge Day was sworn in as the Chief Judge of the Leech Lake 
Tribal Court. Judge Day graduated from St. Cloud State 
University in 1970 with a Bachelor's Degree and from the 
University of Minnesota Law School in 1978.
    Judge Day has been in private practice and served as an 
Assistant U.S. Attorney for the District of Minnesota and 
worked in the legal department for Honeywell as senior counsel. 
Prior to his appointment as Chief Judge, Paul was the executive 
director of the Anishinaabe Legal Services, a program to 
provide legal services to low income residents at Leech Lake, 
White Earth and Red Lake Reservations.
    Judge Day comes from a very large, traditional family. He 
is the eighth of 15 children born to John and Gladys Day, a lot 
of healing and wellness there.
    Today, Paul is the keeper of the family ceremonial drum, 
sweat lodge and pipe. Judge Day is also involved in the 
Anishinaabemowin language revitalization so the ceremony is 
given to the Ojibwe for health and well being can be available 
for future generations.
    Judge Day's commitment to community and to his culture has 
made him the ideal person to preside over the Leech Lake Band 
of the Ojibwe's wellness courts. As Judge Day will explain more 
thoroughly in his testimony today, the wellness courts have 
been a great success for the Leech Lake Band and their 
partners. The wellness courts have fostered positive 
relationships in the region resulting in better exchanges of 
ideas and cultural understanding.
    Thank you, Judge Day, for your testimony today and coming 
all the way from Minnesota. I know that is a great hardship. 
That is a joke because I do that all the time.
    The Chairman. Thank you, Senator Franken.
    Senator Flake, welcome to the Indian Affairs Committee. 
Thank you for being here to discuss your legislation.

                 STATEMENT OF HON. JEFF FLAKE, 
                   U.S. SENATOR FROM ARIZONA

    Senator Flake. Thanks for having me here.
    Right now, I am sure the witnesses are wondering if they 
will ever get to testify. I will be very brief.
    I just want to thank Senator Udall, Senator McCain and 
Senator Heinrich for co-sponsoring this legislation.
    This is the Dine College Act. We want to reauthorize 
college through 2020. We are glad to have the interim president 
here with us today.
    Dine College is vital to the State, to the region and to 
the areas encompassing the reservation, Utah, New Mexico and 
Arizona. It has an enrollment of about 1,500 at last count. It 
has a critical role to play in providing opportunities for 
higher education and to improve the economic condition of those 
on and off the reservation.
    Last week, Navajo Nation President Russell Begay sent a 
letter to Chairman Barrasso and Vice Chairman Tester expressing 
strong support. Also, our Governor, Doug Ducey, has chimed in 
with support as well.
    Dine College has the support, obviously, of Northern 
Arizona University, Arizona State University and the University 
of Arizona as well as the entire Board of Regents.
    It has broad support from a bipartisan group of members 
here and I hope we can move this legislation
    Thank you for being here.
    Thank you, Mr. Chairman, for having me. I will submit my 
entire statement for the record.
    [The prepared statement of Senator Flake follows:]

    Prepared Statement of Hon. Jeff Flake, U.S. Senator from Arizona
    I would like to thank Chairman Barrasso and Vice-Chairman Tester 
for holding this important hearing today. I'm pleased the committee is 
including S. 2564; the Dine College Act in today's hearing and would 
like to thank Senators McCain, Udall, and Heinrich for being original 
cosponsors of this legislation. Tribal colleges play an important role 
in providing Native Americans with greater access to higher education 
and preparation for entering the workforce. This is especially 
important for the state of Arizona, which is home to the third highest 
Native American population in the country. I introduced the Dine 
College Act of 2016 to help ensure that these opportunities would 
continue to be available to students. The Dine College Act is 
bipartisan legislation that reauthorizes the college through 2020. 
Established in 1968, Dine College was the first fully accredited and 
tribally-controlled college in the United States. The college awards 
associate and bachelor degrees and certificates to a predominantly 
Navajo Nation student population and is rooted in Dine language and 
culture. In 2015, Dine College reported an enrollment total of more 
than 1,500 students at locations across the reservation that spans the 
states of Arizona, New Mexico, and Utah. Throughout its history, the 
Dine College has played a critical role in improving educational 
opportunities and social and economic conditions for the Navajo Nation 
and its people. Last week, Navajo Nation President Russell Begaye sent 
a letter to Chairman Barrasso and Vice Chairman Tester expressing 
strong support for the reauthorization of the Dine College act. In 
addition to support from the Navajo Nation, Arizona Governor Doug Ducey 
said that ``Dine College is a vital part of the higher education 
pipeline and serves as a bridge between tribal communities and 
Arizona's workforce.'' Dine College continues to play a significant 
role in Arizona's higher education system and also has support from the 
Arizona Board of Regents, Northern Arizona University, Arizona State 
University, and the University of Arizona. Dine College has broad 
support and I thank the Committee for allowing me the opportunity to 
speak on behalf of this important legislation today.

    The Chairman. Thank you, Senator Flake. We are glad to have 
you.
    If there are no other member statements, let us move to our 
witnesses.
    We have with us: Mr. Michael Black, Director of the Bureau 
of Indian Affairs, Department of the Interior, Washington, 
D.C.; the Honorable Nicholas Garcia, Governor, Pueblo de 
Cochiti of New Mexico; the Honorable Paul W. Day, Chief Judge, 
Leech Lake Band of Ojibwe of Cass Lake, Minnesota; Dr. Martin 
M. Ahumada, Interim President, Dine College, Arizona; and Ms. 
Julie Roberts-Hyslop, Vice Chair, Tanana Tribal Council from 
Alaska; accompanied by: Mr. Robert Clark, President/CEO, 
Bristol Bay Area Health Corporation.
    I want to welcome all of you. I want to remind the 
witnesses that your full written testimony will be made a part 
of the official record today. Please try to keep your 
statements to five minutes or less so that we have more time 
for questions.
    I look forward to hearing your testimony, beginning with 
Director Black. Please proceed.

   STATEMENT OF MICHAEL S. BLACK, DIRECTOR, BUREAU OF INDIAN 
            AFFAIRS, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Black. Good afternoon, Chairman Barrasso, Vice Chairman 
Tester and members of the Committee.
    My name is Mike Black. I am Director for the Bureau of 
Indian Affairs at the Department of Interior.
    Thank you for the opportunity to provide the department's 
position on S. 2643, the Pueblo de Cochiti Self Governance Act; 
S. 2717, the Dam Repairs and Improvements for Tribes Act of 
2016; and S. 2564, the Dine College Act of 2016.
    Regarding S. 2643, the Pueblo de Cochiti Self Governance 
Act, the Pueblo de Cochiti has administered, operated and 
maintained the Cochiti Dam drainage system for three decades 
pursuant to agreements under the Self Determination Act. The 
drainage system was established by the United States in order 
to settle claims by the Pueblo de Cochiti for damages to the 
Pueblo's agricultural lands caused by seepage from the Cochiti 
Dam.
    S. 2643 would endorse a newly-executed agreement between 
the United States and the Pueblo whereby the Pueblo will assume 
legal and financial responsibility for the administration and 
management of the Cochiti Dam drainage system and will release 
the United States from liability associated with that drainage 
system.
    The newly executed agreement will permit the Pueblo to use 
part of the existing drainage system operational maintenance 
funds for a land purchase will be used in the land exchanged to 
restore Pueblo ancestral homelands adjacent to the reservation 
at no expense to the United States or any State or local 
government.
    Through the land exchange, the Pueblo will acquire the 
Canada de Cochiti, a parcel of Pueblo's ancestral lands. The 
Canada de Cochiti is currently owned by the State of New 
Mexico. The Pueblo's ancestral villages and numerous sacred 
sites are located within the Canada de Cochiti.
    For 75 years, the Pueblo has sought to restore and return 
these historically and culturally significant lands to its 
reservation. The exchange will provide a direct benefit to the 
State of New Mexico as well as allow the State to acquire more 
productive, income generating land.
    S. 2643 represents a significant and historic 
accomplishment for the Pueblo. Restoring the Canada de Cochiti 
to the Pueblo is a fundamental element of the bill. Acquiring 
this land is a vital priority for the Pueblo.
    There is an agreed upon timeframe for completing the land 
exchange with the State. Without S. 2643, as endorsement of the 
October 27, 2015 amendment to the Wetfields Settlement 
Agreement, the Pueblo will be unable to obtain funding 
necessary to fulfill the land exchange agreement with the State 
of New Mexico in the time period allotted. The department 
supports S. 2653.
    The intent of S. 2717, the DRIFT Act of 2016, is to improve 
the safety and address the deferred maintenance needs of Indian 
dams to prevent flooding on Indian reservations. The department 
supports the intent of this bill.
    The Act would allow the Bureau of Indian Affairs to improve 
maintenance of high hazard potential dams and the safety of 
Dams Program, establish a program for inspecting and 
maintaining low hazard potential dams, establish a Safety of 
Dams Committee for recommending updates to the Indian Dams 
Safety Act of 1994, and run a four year flood plain management 
pilot program.
    Within the discretionary spending cap set by Congress, the 
President's budget has emphasized the mission of the Safety of 
Dams Program, including a $2 million increase to the program in 
the President's fiscal year 2017 budget.
    The department believes that discretionary funding is the 
appropriate mechanism to improve the safety at BIA dams because 
it considers Federal investments in such projects within the 
context of current fiscal constraints and other departmental 
priorities.
    The department supports the goal of improving the safety of 
BIA dams and allowing tribal communities to realize full 
benefits of dams on their reservation. We look forward to 
working with you to address the best means of doing so given 
the current budget constraints.
    S. 2564, the Dine College Act of 2016, is a bill to 
modernize prior legislation relating to Dine College and would 
provide funding to strengthen institutions of higher education, 
particularly the Dine College and subsequent college branch 
locations located within the Navajo Nation.
    S. 2564 directs the college to prepare and submit inventory 
that identifies the renovations and repairs necessary to meet 
the health and safety standards of the college and any other 
requirements the college determines is necessary to the 
Secretary by October 1, 2016.
    The department is concerned that S. 2564 does not take into 
consideration the potential need to change this date in the 
event the college is unable to meet this deadline. The 
department recommends adding additional language that provides 
an alternative if the college is unable to meet this deadline. 
Also, if the college is unable to meet the deadline, that could 
put some onus on the department being able to meet the January 
2017 deadline.
    The department supports S. 2564 with some amendments.
    This concludes my statement. I am happy to answer any 
questions the Committee may have.
    [The prepared statement of Mr. Black follows:]

  Prepared Statement of Michael S. Black, Director, Bureau of Indian 
                Affairs, U.S. Department of the Interior
                                s. 2564
    Good afternoon Chairman Barrasso, Vice Chairman Tester, and members 
of the Committee. My name is Mike Black. I am the Director for the 
Bureau of Indian Affairs at the Department of the Interior 
(Department). I am here today to provide the Department's position on 
S. 2564, the Dine College Act of 2016.
    The Department supports S. 2564, with amendments and also has a 
concern with the legislation.
Background
    Nearly four decades ago, Congress passed the Navajo Community 
College Assistance Act of 1978 (P.L. Pub. L. 95-471), and provided for 
a facilities study to be completed by the Department by August 1978. 
The 1978 Facility Study was never completed and funding for the Navajo 
Community College, now the Dine College, construction and facilities 
were never appropriated. In 2008, Congress passed the Navajo Nation 
Higher Education Act. Language in the 2008 Act provided that the 
Secretary for the Department ``shall conduct a detailed survey and 
study of the academic facilities needs of Dine College, and shall 
report to the Congress not later than October 31, 2010, the results of 
such survey and study. Such report shall include any recommendations or 
views submitted by the governing body of such College and by the 
governing body of the Navajo Nation, and shall include detailed 
recommendations by the Secretary as to the number, type, and cost of 
academic facilities which are required, ranking each such required 
facility by relative need.'' However, the Department was unable to 
provide this mandated report in the 2008 Navajo Nation Higher Education 
Act due to the lack of necessary information from the College necessary 
to compile and complete the report.
    In adherence to the original 1978 congressionally mandated facility 
study for the College, the BIA Navajo Regional Office made numerous 
attempts to work with the College leadership to attain the data needed 
to include in prior mandated reports to Congress. The BIA Navajo 
Regional facilities staff and IA Division of Facilities Management and 
Construction (DFMC) staff have met with the College over the last 
couple of months to resolve the data requirements and coordinate 
efforts to address this need.
    As of April 5, 2016, the following documents were pending 
submission or being revised by the College and resubmitted to the BIA 
Navajo Region:

  <bullet> Environmental Data (Pending),
  <bullet> Drawings of the campus site (being revised),
  <bullet> Annual Operations and Maintenance actual costs for the site 
        (being revised), and
  <bullet> Information Technology Assessment (being revised).

    The detail required from the College will assist the Department in 
calculating actual costs for an accurate Report to Congress. The Navajo 
Regional Facilities staff and DFMC will continue to work with the 
College to clarify the data and inventory requirements to facilitate a 
comprehensive and accurate survey to identify the needs of the College. 
The College is including facility locations and inventory needs outside 
the main Tsaile Dine College location; for example, Shiprock, New 
Mexico, Tuba City, Arizona, and Crownpoint, New Mexico. The Department 
recommends the facility study be limited to the Tsaile, Arizona College 
location.
S. 2564
    S. 2564, a bill to modernize prior legislation relating to Dine 
College, would provide funding to strengthen institutions of higher 
education, in particular, the Dine College (College), located in 
Tsaile, Arizona, on the Navajo Nation, and subsequent College branch 
locations located within the Navajo Nation. S. 2564 directs the College 
to prepare and submit an inventory that identifies the renovations and 
repairs necessary to meet the health and safety standards of the 
College and any other requirements the College determines is necessary 
to the Department's Secretary by August 1, 2016. The Department is 
concerned that S. 2564 does not take into consideration the potential 
need to change this date in the event that the College cannot meet this 
deadline. The Department recommends adding additional language that 
provides an alternative if the College cannot meet the deadline.
    Upon receipt of the inventory provided by the College, the 
Secretary shall use the inventory as baseline data to inform and 
conduct a detailed survey and study of all the capital projects and 
facility needs of the College. Thereafter, the Secretary shall submit a 
report on the results of the survey and study to appropriate committees 
of Congress by January 31, 2017. The report shall include 
recommendations by the Secretary and any recommendations or views 
submitted by the College or the Navajo Nation regarding the capital 
projects and facility needs of the College. The Department is concerned 
that S. 2564 does not take into consideration the potential need to 
change the Secretary's deadline for delivering the Report to Congress, 
as stated in S. 2564. In the event that the College fails to meet its 
deadline, such delay would result in a delay in the Secretary's Report 
to Congress. The Department recommends adding or amending the 
legislation to provide flexibility in the Secretary's Report delivery 
to Congress. S. 2564 also states that the Secretary may use amounts 
made available to the Secretary in general administrative 
appropriations to complete survey, study and report. As written, the 
Department will have to absorb the additional costs for this activity. 
Given our already limited resources, we propose amending the 
legislation to make it subject to appropriations.
    S. 2564 also authorizes appropriations to the Secretary over four 
years ($2 million per year) in grants to the College, for a total 
amount of $8 million, for construction activities, including the 
renovation and repair or construction of buildings, water and sewer 
facilities, roads, information technology and telecommunications 
infrastructure, classrooms, and external structures (such as walkways) 
identified in the survey, study, and report. Although the Secretary's 
survey, study, and the report do not require operations and maintenance 
to be included, S. 2564 authorizes the Secretary to make grants to the 
College for operations and maintenance, subject to congressional 
appropriations over four years.
    The Department is aware that the Navajo Nation (or the College) 
hired an architectural firm, Dyron Murphy Architects, P.C., in October 
2013 to conduct a facilities assessment of the College campus and 
branch locations. The report is titled ``Facility Assessment and 
Recommendation.'' The Department understands that the assessment 
prioritized the needed work, starting with life safety, structures and 
other needs related to the physical condition of the College campus and 
its branch locations. The main College sits on approximately 1,005 
acres.
                                s. 2717
    Good afternoon Chairman Barrasso, Vice Chairman Tester, and members 
of the Committee. My name is Michael Black and I am the Director for 
the Bureau of Indian Affairs. Thank you for inviting the Department of 
the Interior (Department) to provide testimony on S. 2717, the Dam 
Repairs and Improvements for Tribes Act of 2016. We appreciate the 
Committee's leadership in addressing dam safety concerns on Indian 
lands.
    The intent of S. 2717, the DRIFT Act of 2016, is to improve the 
safety and address the deferred maintenance needs of Indian dams to 
prevent flooding on Indian reservations. The Department supports this 
intent.
    The Act authorizes the establishment of two special funds--one for 
a maximum of $22,750,000 a year for twenty years (2017-2037) and the 
other for $10,000,000 each year for the same time period--for a total 
allocation of $655 million to the Bureau of Indian Affairs (BIA) Safety 
of Dams special funds. Any subsequent expenditure from these funds 
would be subject to appropriations. The Act would allow the Bureau of 
Indian Affairs to improve maintenance of high-hazard potential dams in 
the Safety of Dams Program, establish a program for inspecting and 
maintaining low-hazard potential dams, establish a Tribal Safety of 
Dams Committee for recommending updates to the Indian Dam Safety Act of 
1994 (P.L. 103-302), and run a four-year floodplain management pilot 
program.
    Within the discretionary spending caps set by Congress, the 
President's Budget has emphasized the mission of the Safety of Dams 
Program, including a $2 million increase for the program in the 
President's FY 2017 Budget. The Department believes that discretionary 
funding is the appropriate mechanism to improve the safety of BIA dams, 
because it considers federal investments in such projects within the 
context of current fiscal constraints and other Departmental 
priorities. The Department supports the goals of improving the safety 
of BIA dams and allowing tribal communities to realize the full 
benefits of dams on their reservations, and we look forward to working 
with you to address the best means of doing so given current budget 
constraints.
Bureau of Indian Affairs Safety of Dams Program Background
    Many BIA dams are vital to the tribes and local communities where 
they are located. The BIA is responsible for maintaining and 
rehabilitating all of the dams on Indian lands per the Indian Dams 
Safety Act of 1994. The BIA Safety of Dams Program's mission is to 
reduce the potential loss of human life and property damage caused by 
dam failure. The Safety of Dams Program contracts or compacts with 
Indian Tribes to perform many aspects of the Program. The BIA retains 
ultimate responsibility for Program dams. The Safety of Dams Program 
has approximately $23 million in annual funding, of which $10 to $12 
million is allocated for the rehabilitation of Program dams, and the 
remainder of funds are allocated to activities such as security, 
emergency management systems and inspections and evaluations. The 
estimated current value of deferred maintenance costs is $556 million. 
Since 2010, the cost of deferred maintenance has increased 
approximately 6 percent per year.
    The Safety of Dams Program also has the responsibility for 
determining the hazard potential classification of all dams located on 
tribal lands. Many known dams have not had a hazard potential 
classification assigned, and it is likely that there are more dams on 
tribal land that have not been identified. Additionally, hazard 
potential classifications may change with new downstream developments. 
Continued monitoring of low-hazard structures may be necessary to 
confirm their classifications. The BIA is responsible for more than 700 
low-hazard or unclassified dams across the United States. The Safety of 
Dams Program currently administers 137 high- or significant-hazard 
potential dams on 41 Indian reservations. Under current policy only 
high- and significant-hazard dams are inspected, evaluated and 
maintained by the BIA Safety of Dams Program.
    Currently, activities for all high- and significant-hazard 
potential dams in the BIA Safety of Dams Program include:

  <bullet> Dam evaluation, design, construction, operations, and 
        maintenance;
  <bullet> Dam security;
  <bullet> Early warning systems;
  <bullet> Emergency management; and
  <bullet> Floodplain management downstream of BIA dams.

    Each of these program areas is described in detail below.
BIA Safety of Dams Program Activities and Funding Impacts
Dam evaluation, design, construction, operations, and maintenance
    As noted, the primary goal of the BIA Safety of Dams Program is to 
protect downstream residents from risks associated with dam failures. 
Dam safety projects are identified through an established evaluation 
process, whereby the agency evaluates each dam facility through 
inspections, and reviews to understand the risks presented by each dam. 
These evaluations lead to recommendations around future design, 
construction, and operations and maintenance. The Program utilizes a 
risk-informed decision process to prioritize dam repairs, reduce 
deferred maintenance, and conduct associated dam safety actions. This 
approach is consistent with that of other federal agencies responsible 
for dam safety, including the Bureau of Reclamation, the U.S. Army 
Corps of Engineers, and the Federal Energy Regulatory Commission. As 
hazard classification potentials are updated, the number of high- and 
significant-hazard potential dams may increase, if that happens, 
maintenance and evaluation requirements will also increase.
    The BIA Safety of Dams Program adopted the aforementioned updated 
evaluation and prioritization system in 2012. Since then, 34 of the 
identified 137 high- and significant-hazard dams have been evaluated. 
Of those 34, 14 (approximately 42 percent) have been identified as 
presenting unacceptable risks. These facilities will require risk 
reduction measures, which often include construction modifications. 
Costs for these construction modifications vary widely, but are 
generally between $1 and $25 million per facility. Current funding 
allows for modification of the highest priority of the known high-
hazard potential, high risk facilities. Typically, one to three 
facilities undergo construction modifications each year.
    Many BIA dams present risks that exceed the tolerable risk 
guidelines established by the federal dam safety community. Additional 
construction modifications would reduce deferred maintenance and 
improve the safety of BIA dams.
    Dams, if they are low hazard, can provide significant value to the 
communities they serve, including irrigation, livestock watering, flood 
mitigation, wildlife habitat and recreation. The Act would initiate an 
inspection, review, prioritization, and maintenance program for low-
hazard potential dams. The BIA establishes temporary risk reduction 
measures at identified high risk facilities with deferred maintenance 
which reduce risk, but the intended benefits of these facilities are 
often lost. Reducing the deferred maintenance allows for realization of 
the benefits provided by these facilities without unacceptable risk of 
loss of life.
    For example, one facility in the program that provides irrigation 
and fishery benefits presents unacceptably high risk. To mitigate short 
term risk, the water level was lowered significantly. This restriction 
reduced the irrigation storage by approximately half and reduced the 
productivity of the fishery. Many facilities have similar operational 
restrictions.
Dam Security
    The BIA Safety of Dams Program is in the process of conducting a 
review of the security measures in place at all high- and significant-
hazard potential dams in the Program. Security reviews have resulted in 
many recommendations to increase or modify the existing security 
measures based on analysis of the risk, vulnerability, and consequences 
at each dam. Funding provided by this Act would allow the Program to 
implement these recommended security measures at the highest risk dams, 
further protecting the Indian communities downstream of these dams.
Early Flood Warning Systems
    It is well documented from historical dam failures and hazardous 
flood events that loss of life due to flooding is highly dependent on 
the amount of warning time received by downstream residents. The BIA 
currently operates a network of approximately 300 real-time early flood 
warning system sites for 120 Program dams located on 37 reservations. 
The current system is designed to address unique data and communication 
challenges for BIA dams, which are often located in rural, mountainous 
areas with unique access, power, and telemetry issues. In the event of 
a dam failure, this system increases the time available to evacuate 
communities downstream of BIA dams.
    The effectiveness of an early warning system in providing critical 
response time in the event of a dam failure depends on continual system 
maintenance and investment. Despite extensive system upgrades in recent 
years, there are high-hazard potential dams currently using outdated 
technology and others without early warning systems. . For example, 
significant improvements could be made within the web-based data 
network to make it more user-friendly and applicable to specific 
tribes' monitoring and flood warning needs.
Emergency Management
    The Indian Dam Safety Act requires that all high- and significant-
hazard dams have current updated Emergency Action Plans in the event of 
an incident that may jeopardize the integrity of the dam. These 
Emergency Action Plans outline procedures for notifying the downstream 
jurisdictions in the event of a potential dam failure so that warning 
and evacuation can be effectively performed to minimize loss of life 
and property. Practical exercises are conducted every five years to 
train the dam safety staff and local emergency response staff to act 
swiftly and effectively in the event of a dam failure.
    These exercises may meet the minimum requirements of Department of 
Homeland Security and Department of Interior directives, but this 
timeframe is often insufficient to meet tribal needs. Within tribal 
departments, there is often a high staff turnover rate, therefore more 
frequent training regarding emergency procedures would provide 
additional opportunities to prepare and equip these communities to 
effectively respond to potential dam safety and other emergency 
incidents. The Emergency Action Plans and procedures rely on accurate 
flood zone mapping. Modern technologies have improved flood zone 
mapping to more effectively guide emergency response procedures.
Floodplain Management Downstream of BIA Dams
    Flooding is one of the most common and destructive natural hazards 
confronting tribal communities. Despite this, natural flood risks 
throughout most tribal lands are poorly understood. In 2013 the 
Government Accountability Office (GAO) published a report to 
Congressional Committees titled Flood Insurance: Participation of 
Indian Tribes in Federal and Private Programs (GAO-13-226). This report 
stated that ``as of August 2012, just 37 of 566 federally recognized 
tribes (7 percent) were participating in the National Flood Insurance 
Program (NFIP).'' It was noted that ``FEMA has not placed a high 
priority on mapping rural areas, including many Indian lands, for flood 
risk, and most tribal lands remain unmapped.'' GAO-13-226 continued, 
``Without flood-hazard maps, tribal communities may be unaware of their 
flood risk, even in high-risk areas.'' The Safety of Dams Program has 
attempted to supplement tribal understanding of flood risks through the 
development of Non-Dam-Failure Advisory Flood maps. These maps have 
been created with tribal community input to depict flooding scenarios 
downstream of BIA dams that can be used by community leaders for land-
use planning and increased public awareness of natural flood risks. To 
date, the Safety of Dams Program efforts to support tribal floodplain 
management have been confined to waterways directly downstream of BIA 
dams. With the implementation of the Flood Plain Management Pilot 
Program in this proposed Bill, the Safety of Dams Program would be able 
to assist tribes in developing enhanced understanding of local flood 
risks in the natural floodplains within tribal communities.
S. 2717
    S. 2717 would create two funds, a ``High-Hazard Indian Dam Safety 
Deferred Maintenance Fund, and a ``Low-Hazard Indian Dam Safety 
Deferred Maintenance Fund'' in the Department of the Treasury from the 
reclamation fund that was established in the Act of June 17, 1902 (32 
Stat. 388, chapter 1093). The High Hazard Dam Fund would be authorized 
to receive a maximum of $22,750,000 per year for 20 years for a total 
allocation of $455 million. The High Hazard dams eligible for funding 
under section 201 (b) (1) are current and all future dams covered under 
the Indian Dam Safety Act (P.L. 103-302). S. 2717 would also establish 
a Low-Hazard Indian Dam Safety Deferred Maintenance Fund which would be 
authorized to receive $10,000,000 each year for the same time period, 
for a total allocation of $200 million. The Low Hazard Potential dams 
eligible for funding under section 201(b)(2) are all dams covered under 
the Indian Dam Safety Act (P.L. 103-302).
    S. 2717 would expand the BIA Safety of Dams Program by providing 
mechanisms to address low-hazard potential dams and for the Tribal 
Safety of Dams Committee to study and recommend updates to the Indian 
Dam Safety Act of 1994.
    Opportunity exists for the Tribal Safety of Dams Committee to 
update the Indian Dam Safety Act of 1994 to better align with current 
standards of practice within the Federal dam safety community. These 
updates might include changes in the definition of hazard potential 
classification to align with the guidelines published by the Federal 
Emergency Management Agency (FEMA) titled ``Federal Guidelines for Dam 
Safety: Hazard Potential Classification System for Dams'' (FEMA 
Publication Number 333) and changes in action prioritization of the 
Maintenance Action Plan to better align with the methodology of the 
``Federal Guidelines for Dam Safety Risk Management'' (FEMA Publication 
Number P-1025). The Tribal Safety of Dams Committee should also 
consider updates to allow funds to be used, where appropriate and 
requested by Tribes, for the removal of dams in order to eliminate the 
safety hazards posed by deteriorating dams, reduce the long-term costs 
to tribes and the Federal government for maintenance and repair, 
restore ecosystem health, and improve opportunities for economic 
development and recreation.
    Aside from our policy stance on the bill, there are a number of 
technical imperfections within the current draft of S. 2717. For 
example, Section 214 would amend the Water Resources Development Act of 
2000 such that the Secretary would be required to issues guidance 180 
days after the enactment of the Water Resources Development Act of 
2014. The Department would be happy to work with the committee to 
correct such imperfections.
Conclusion
    The mission of the Safety of Dams Program is to protect, to the 
extent practicable, people who reside in or who otherwise occupy land 
downstream from the risk BIA dams pose. Enacting certain sections of S. 
2717 would advance this mission by enabling the BIA Safety of Dams 
Program to better fulfill its trust responsibility to tribes. S. 2717 
would improve dam safety regulation and floodplain management on Indian 
lands.
    The overall intent of S. 2717, the DRIFT Act of 2016, is to improve 
the safety and address the deferred maintenance needs of Indian dams to 
prevent flooding on Indian reservations. The Department supports the 
intent of this legislation and would be happy to work with the 
committee to amend S. 2717 such that we could support the amended bill.
    This concludes my prepared statement. I will be happy to answer any 
questions you may have.

    The Chairman. Thank you very much, Mr. Black. We appreciate 
your being here.
    Next, I will turn to Governor Nicholas Garcia.

STATEMENT OF HON. NICHOLAS GARCIA, GOVERNOR, PUEBLO DE COCHITI, 
                           NEW MEXICO

    Mr. Garcia. Chairman Barrasso, Ranking Member Tester, and 
members of the Committee, on behalf of the Pueblo de Cochiti, I 
thank you for holding this hearing and providing us with the 
opportunity to discuss the Pueblo de Cochiti Self Governance 
Act.
    This legislation reflects the positive evolution and 
healing process that follows a difficult history of culture and 
economic harm to the Pueblo de Cochiti from the adverse impacts 
caused by the Cochiti Dam. To fully understand the importance 
of this legislation to our people and the valuable objectives 
it achieves, you must first know a bit about Pueblo de Cochiti 
and our experience with the Cochiti Dam.
    The Pueblo de Cochiti is a federally-recognized tribe of 
approximately 1,500 members located in New Mexico approximately 
50 miles north of Albuquerque. Our ancestors have resided in 
this area for more than 1,000 years. We once occupied the lands 
that are now the site of the Bandolier National Monument.
    The cultural life of the Pueblo revolves around our land. 
Our economy has historically been based on agriculture. Many of 
our rituals and ceremonies are tied to events in the 
agricultural calendar.
    Congress authorized construction of the Cochiti Dam in the 
Flood Control Act of 1960 and the dam was completed in 1975. 
Built by the U.S. Corps of Engineers on Cochiti land, the dam 
is one of the largest earthen dams in the United States. 
Cochiti Dam and its surrounding waters occupy 11,000 acres of 
the Pueblo's ancestral lands.
    While those downstream have benefitted from the dam's 
protection from Rio Grande flooding as intended, the 
construction of the dam imposed great hardship on our Pueblo. 
The whirlpool rock that is sacred to Cochiti and other Pueblos 
is within the dam area.
    Despite promises from the engineers that the rock would not 
be affected by the dam, it was one of the sites destroyed by 
the dam, impeding our religious practices and those of our 
neighboring Pueblos.
    Additionally, for over two decades, groundwater seepage 
from under the dam flooded Cochiti agricultural fields making 
them unusable, causing the Pueblo to cease for more than a 
generation.
    The seepage problem and the damage it caused was not 
corrected by the United States until our Pueblo brought a 
lawsuit which was originally filed in 1980. Known as the 
Cochiti Wetfields litigation, the lawsuit was settled in 1990 
when the United States agreed to build a drainage system to 
channel groundwater seepage from the dam points beyond our 
fields. The settlement also provided $4.5 million for the 
operation and maintenance of that drainage system.
    The Pueblo has administered, operated and maintained the 
Cochiti Dam drainage system for three decades pursuant to 
agreements under the Indian Self Determination Act. Despite the 
loss of farming in our community for more than a generation, 
through an agricultural restoration program, fields are now 
today productive and many of our members maintain a livelihood 
or supplement their income through cultivating traditional 
crops of beans, corn and squash as well as alfalfa and grain.
    S. 2643 endorses the 2015 amendment of the Wetfields 
Settlement Agreement that the Pueblo, the Corps and the BIA 
executed in order to accomplish three objectives.
    Number one was to promote Cochiti self determination by 
transferring responsibility for the operation and maintenance 
of the Cochiti Dam drainage system to the Pueblo. Two was to 
release the United States from any and all liability associated 
with the drainage system. Third was to expand the authorized 
uses of accumulated drainage system reserve funds for the 
acquisition of ancestral lands known as the Canada de Cochiti, 
Cochiti Canyon.
    The third objective reflects the development of an 
exceptional opportunity for the Pueblo to reacquire culturally 
significant ancestral homelands adjacent to the Cochiti 
Reservation at no expense to the United States, any State or 
local government. The Pueblo's ancestral villages and numerous 
sacred sites are located in the Canada de Cochiti. For 75 
years, the Pueblo has sought to restore these historically and 
culturally significant lands to its reservation.
    The land is owned by the State of New Mexico. Several years 
ago, the Las Conchas fire ravaged the area, destroying all 
productive activity on that land. The Pueblo entered into a 
lease agreement with the State with an option to acquire the 
parcel through a land exchange agreement.
    If the Pueblo purchases property of equivalent value for 
the State, the State will transfer its ownership of the Canada 
to the Pueblo. Our challenge, however, is obtaining funding 
needed to purchase lands of equivalent value for the exchange 
with the State.
    The Pueblo de Cochiti is not involved in gaming and has 
limited economic development programs. The Canada de Cochiti 
was appraised at approximately $5 million.
    The Pueblo will be able to purchase real property of 
equivalent value only if it were authorized to utilize a 
portion of its accumulated reserve fund in the Cochiti Dam 
drainage system operations and maintenance fund.
    The amendment to the Wetfields Settlement Agreement in 2015 
transfers to the Pueblo the authority and responsibility for 
the administration of that drainage system and will modify the 
purpose of that to include this acquisition of land. The 
acquisition involves no controversy with other landowners or 
governments and will not be used for gaming purposes.
    The exchange will provide a direct benefit to the State of 
New Mexico because it will allow the State to acquire more 
productive, income generating land. Meanwhile, the Pueblo will 
use the Canada de Cochiti land for cultural purposes. The 
Pueblos conducted engineering and cost analyses of the drainage 
system's operation, maintenance and replacement costs over time 
in order to ensure the effectiveness of the system for our 
agricultural needs.
    The Pueblo, the Department of the Interior and the Army 
Corps of Engineers worked closely to develop mutually 
acceptable terms to amend the Wetfields Settlement Agreement to 
establish binding terms for the transfer of responsibility to 
the Pueblo and to release the United States from liability 
associated with the drainage system.
    The relevant Federal agencies support the Pueblo's 
objectives and the amendment has been executed by all parties. 
In order to go into effect, however, Congress must endorse the 
amendment.
    We thank Senators Udall and Heinrich for introducing this 
bill and we encourage this Committee to approve this 
legislation and clear the way for a vote by the entire Senate. 
The legislation has the support of the State of New Mexico, the 
bipartisan endorsement of the New Mexico congressional 
delegation, the backing of the relevant Federal agencies and 
the blessings of our neighboring Pueblos.
    Thank you for your consideration. I am happy to answer any 
questions you may have.
    [The prepared statement of Mr. Garcia follows:]

    Prepared Statement of Hon. Nicholas Garcia, Governor, Pueblo de 
                          Cochiti, New Mexico
    Chairman Barrasso, Ranking Member Tester and Members of the 
Committee, on behalf of the Pueblo de Cochiti, I thank you for holding 
this hearing and providing us with the opportunity to discuss the 
Pueblo de Cochiti Self-Governance Act. This legislation reflects the 
positive evolution and healing process that follows a difficult history 
of cultural and economic harm to the Pueblo de Cochiti from the adverse 
impacts caused by the Cochiti Dam.
    To fully understand the importance of this legislation to our 
people and the valuable objectives it achieves, you must first know a 
bit about Cochiti Pueblo and our experience with the Cochiti Dam.
    The Pueblo de Cochiti is a federally recognized tribe of 
approximately 1500 members located in New Mexico approximately 50 miles 
north of Albuquerque. Our ancestors have resided in this area for more 
than a thousand years. We once occupied the lands that are now the site 
of the Bandolier National Monument.
    The cultural life of the Pueblo revolves around our land. Our 
economy has historically been based on agriculture. Many of our rituals 
and ceremonies are tied to events in the agricultural calendar.
    Congress authorized the construction of the Cochiti Dam in the 
Flood Control Act of 1960 and the Dam was completed in 1975. Built by 
the U.S. Army Corps of Engineers on Cochiti lands, the Dam is one of 
the largest earthen dams in the United States. Cochiti Dam and its 
surrounding waters occupy 11,000 acres of the Pueblo's ancestral land.
    While those downstream have benefitted from the dam's protection 
from Rio Grande flooding as intended, the construction of the Dam 
imposed great hardship on our Pueblo. The whirlpool rock that is sacred 
to Cochiti and other Pueblos is within the Dam area. Despite promises 
from the engineers that the rock would not be affected by the Dam, it 
was one of the sites destroyed by the Dam, impeding our religious 
practices and those of our neighboring Pueblos. Additionally, for over 
two decades, groundwater seepage from under the Dam flooded Cochiti 
agricultural fields making them unusable, causing the Pueblo to cease 
farming more than a generation.
    The seepage problem and the damage it caused was not corrected by 
the United States until our Pueblo brought a lawsuit, which was 
originally filed in 1980. Known as the Cochiti Wetfields litigation, 
the lawsuit was settled in 1990 when the United States agreed to build 
a drainage system to channel groundwater seepage from the Dam to points 
beyond our fields. The settlement also provided $4.5 million for the 
operation and maintenance of that drainage system.
    The Pueblo has administered, operated and maintained the Cochiti 
Dam drainage system for three decades pursuant to agreements under the 
Indian Self-Determination Act. Despite the loss of farming in our 
community for more than a generation, through an agricultural 
restoration program, fields are today productive and many of our 
members maintain a livelihood or supplement their income through 
cultivating traditional crops of beans, corn and squash as well as 
alfalfa and grains.
    S. 2643 endorses the 2015 amendment of the Wetfields Settlement 
Agreement that the Pueblo, the Corps and BIA executed in order to 
accomplish three objectives:

  <bullet> Promote Cochiti self-determination by transferring 
        responsibility for the operation and maintenance of the Cochiti 
        Dam drainage system to the Pueblo;

  <bullet> Release the United States from any and all liability 
        associated with the drainage system; and

  <bullet> Expand the authorized uses of accumulated drainage system 
        reserve funds for the acquisition of ancestral lands known as 
        the Cariada de Cochiti (Cochiti Canyon).

    This third objective reflects the development of an exceptional 
opportunity for the Pueblo to reacquire culturally significant 
ancestral homelands adjacent to the Cochiti Reservation at no expense 
to the United States, or any state or local government. The Pueblo's 
ancestral villages and numerous sacred sites are located in the Cariada 
de Cochiti. For 75 years, the Pueblo has sought to restore these 
historically and culturally significant lands to its reservation.
    The land is owned by the State of New Mexico. Several years ago, 
the Las Conchas fire ravaged the area, destroying all productive 
activities on that land. The Pueblo entered into a lease agreement with 
the State with an option to acquire the parcel through a land exchange 
agreement. If the Pueblo purchases property of equivalent value for the 
State, the State will transfer its ownership of the Canada to the 
Pueblo.
    Our challenge, however, is obtaining funding needed to purchase 
lands of equivalent value for the exchange with the State. The Pueblo 
de Cochiti is not involved in gaming and has limited economic 
development programs. The Canada de Cochiti was appraised at 
approximately $5 million.
    The Pueblo will be able to purchase real property of equivalent 
value only if it were authorized to utilize a portion of its 
accumulated reserve funds in the Cochiti Dam drainage system operations 
and maintenance fund. The amendment to the Wetfields Settlement 
Agreement executed in 2015 transfers to the Pueblo the authority and 
responsibility for the administration of that drainage system and will 
modify the purpose of that to include this acquisition of land.
    The acquisition involves no controversy with other landowners or 
governments and will not be used for gaming purposes. The exchange will 
provide a direct benefit to the State of New Mexico because it will 
allow the State to acquire more productive, income-generating land. 
Meanwhile, the Pueblo will use the Canada de Cochiti lands for cultural 
purposes.
    The Pueblo has conducted an engineering and cost analysis of the 
drainage system's operation, maintenance and replacement costs over 
time in order to ensure the effectiveness of that system for our 
agricultural needs. The Pueblo, the Department of Interior and the Army 
Corps of Engineers worked closely to develop the mutually acceptable 
terms to amend the Wetfields Settlement Agreement to establish binding 
terms for the transfer of responsibility to the Pueblo and to release 
the United States from liability associated with the drainage system. 
The relevant federal agencies support the Pueblo's objectives and the 
amendment has been executed by all parties. In order to go into effect, 
however, Congress must endorse the amendment.
    We thank Senators Udall and Heinrich for introducing this bill and 
we encourage this Committee to approve this legislation and clear the 
way for a vote by the entire Senate. The legislation has the support of 
the State of New Mexico, the bi-partisan endorsement of the New Mexico 
congressional delegation, the backing of the relevant federal agencies 
and the blessing of our neighboring Pueblos.
    Thank you for your consideration. I am happy to answer any 
questions you may have.

    The Chairman. Thank you very much for your testimony, 
Governor Garcia.
    Now we will move to Judge Day.

STATEMENT OF HON. PAUL W. DAY, CHIEF JUDGE, LEECH LAKE BAND OF 
                             OJIBWE

    Mr. Day. Good afternoon, Mr. Chairman and members of the 
Committee.
    I am going to be testifying this afternoon about S. 2055, 
the Tribal Healing to Wellness Courts Act. I want to let the 
Committee know right away that I support the bill and I have 
good reason based on ten years experience working with wellness 
courts at Leech Lake. We know they work.
    I want to come back to that in just a minute but first, I 
want to talk about something else.
    In order for the Leech Lake Band of Ojibwe, the Cass County 
governmental officials and the Itasca county governmental 
officials to have a wellness court in the first place, they had 
to first have a meeting of the minds.
    They looked at all the statistics and all the problems 
associated with alcohol use and abuse, drug abuse, all the 
numbers in our part of the Country and concluded that what was 
the run of the mill way of handling these things was not 
working, so they decided to do something.
    They created some memoranda of understanding and some joint 
agreements to work together to do things. As a result of that 
change in the change in the political climate there, they were 
able to start a wellness in Cass and Itasca Counties.
    The first one started in 2006 and the second in 2007. We 
have had those two courts evaluated by an independent source 
and compared against the ten key components of a drug court and 
ten key guidelines of a DUI court, the work of the wellness 
court was matched against all of those factors.
    In nearly every single factor that was evaluated, the 
wellness court participants did much better than those who do 
not go to wellness court. In other words, their recovery was 
sooner, longer, faster, their staying power was better, and 
their sentences were shorter.
    One of the most important things is the ratio of money 
spent to money saved was there. In Cass County, the evaluation 
showed that for every dollar spent, there was $1.13 in savings. 
Itasca County was even better. For every dollar spent, there 
was $1.70 in savings.
    When you project those numbers over a period of years, in 
poor counties like Cass County and Itasca County, those 
projected savings can add up to $2 million. That is a huge 
impact. We know they work.
    The important thing was in order for those wellness courts 
to get started, we had to have that political climate change. 
For any future wellness courts, that is a good starting place. 
That would be my recommendation.
    Let me talk a bit about the wellness courts and give some 
examples of how this works. Many of the people in wellness 
court also have problems at home. Some have their children 
removed from them because of the dysfunction at home.
    In wellness court, when a person is in recovery and 
rehabilitating, they are staying straight, sober and acting 
like they are supposed to and are able to do the things they 
need to do to reunite with their families so they can get their 
children back. That is one good and positive thing we see. It 
is always a great day in our courtroom when we can reunite 
family that way.
    Another incident I recall is there was a young boy who was 
a juvenile and he was participating in a Cass County Court, 
Leech Lake diversion project. He was having trouble most of his 
juvenile life until he came to the diversion project. To make a 
long story short, the ceremony he went through gave him his 
spiritual name, his Indian name. That is all it took for that 
young boy because after that, he walked the straight and 
narrow.
    It was not magic. It was the fact that his family did not 
have that resource in their background. Neither did his 
grandparents. Once we were able to step in and help him with 
that and get him on track, now he has turned his life around.
    We have a young man who has been in and out of wellness 
court for a couple years. He is doing well now. He has had some 
relapses but he is doing well. As part of his recovery, he has 
learned how to run a sweat lodge.
    The way you know a person is accepted in the community at 
Leech Lake regarding their spiritual endeavors is if people 
show up to participate. He has people showing up more and more 
every month when he has his monthly sweats.
    We have a woman there who, if I may say, is elderly, with 
many spiritual gifts in teachings. But she has been on the 
sidelines for a number of years because of her addictions. She 
is now working with the youth and doing the teachings for those 
folks that she should have been doing all along. She is doing 
well in recovery.
    I recall one other. We had a grandmother who was adopting 
her granddaughter because the bio-mom had passed away from drug 
abuse and what-not. We did a ceremony in court for her. We took 
out the pipe and did a traditional adoption ceremony.
    We did that because the child welfare protection people 
said there needs to be something more than just a piece of 
paper from court. We really need to have them experience this 
new relationship. That turned out well.
    Those are the kinds of things I see over the years in 
wellness court. I definitely support the bill at this time.
    I am glad to be here and I appreciate the invitation.
    [The prepared statement of Mr. Day follows:]

Prepared Statement of Hon. Paul W. Day, Chief Judge, Leech Lake Band of 
                                 Ojibwe
    Good Afternoon Mr. Chairman and Members of the Committee. My name 
is Paul Day and I am the Chief Judge of the Leech Lake Band of Ojibwe 
Tribal Court in Cass Lake, Minnesota.
    I have served in this position since December of 2012 and have 
prior experience as an Assistant U.S. Attorney for the District of 
Minnesota and as the Executive Director of the Anishinabe Legal 
Services, a program which provides legal services to low-income 
residents at the Leech Lake, White Earth and Red Lake reservations.
    I want to thank you for holding this hearing to discuss a number of 
important pieces of legislation which are being considered before this 
body and which are of great importance to Indian Country. Given my 
experiences, I would like to focus my testimony on S. 2205, the Tribal 
Healing to Wellness Courts Act of 2015 and thank Senators Tester and 
Franken for its introduction.
    After reviewing the goals of the legislation and reflecting on my 
personal experiences, I firmly believe there is a very significant need 
for programs this bill is seeking to support. And that its enactment 
and funding would provide significant health and wellness benefits to 
tribal communities around the nation.
    Like many communities, Leech Lake has been a victim to substance 
abuse over the years. According to the Indian Health Service at HHS, 
Native Americans are five times more likely to die from alcohol related 
causes than those who are not. As you can imagine, this has been a 
serious problem and has had a severe impact to our community.
    With this said however, I am pleased to report that we had some 
success in partnering with local communities to establish wellness 
courts in our area. In our region, the elected officials of the Leech 
Lake Band of Ojibwe and the counties of Cass and Itasca have joined 
hands to see what they can do to make life better for their citizens. 
The wellness courts created through cooperative agreements are just one 
example of the success created when governments work together.
    Through these courts, we have seen positive results as we work 
together to combat this combat this epidemic in our community and 
provide assistance to those who hope to recover. I'd like to take a 
moment to discuss a few of the benefits of wellness courts that I have 
seen during my time as the Chief Judge.
    As a Public Law 280 state, Minnesota has jurisdiction over criminal 
matters on most Indian reservations. The counties could simply continue 
to do business as usual and jail offenders (many of whom are Indian) 
for alcohol related offenses. However, the cost of incarcerating 
offenders and the high recidivism rates for alcohol and drug offenders 
require a different approach.
    In our area we thought and it has proven correct, that a wellness 
court for Indians and non-Indians that followed the best practices 
standards would help address these issues.
    As a result we have seen positive results for the participants in 
wellness court and a cost-benefit to the taxpayers. Those who 
participate in our wellness courts have a lower recidivism rate and 
perform better in an in almost all categories than those who do not.
    Further and importantly, for every dollar invested in the Leech 
Lake/Cass County wellness court, the taxpayers receive $1.13 in return, 
while the return on every dollar is $1.70 in the Leech Lake/Itasca 
County wellness court. Wellness courts, in my opinion, are a very 
effective use of taxpayer funding.
    In brief, the wellness courts have been a great success for the 
Leech Lake Band of Ojibwe and our county partners and could not have 
happened without excellent government-to-government relationships. 
These courts have contributed greatly to positive relationships in the 
region and have helped break down old barriers that were propped up by 
ignorance and prejudice.
    Although we have had measureable success and outcomes, Tribal 
wellness courts face unique challenges that are not usually encountered 
in a state drug court system. And I believe there are many ways that 
this system could be improved--some of which are addressed as a part of 
S. 2205.
    Of specific note, the Leech Lake/Cass County wellness court team 
needs a member from the public defenders' office to help assure that 
policy decisions made by the team protect the due process rights of the 
participants. Unfortunately, the public defenders cannot continue 
working on a case once the case has been litigated or otherwise 
resolved.
    Thus, the Leech Lake tribal court, like many tribal courts across 
the country, need additional funding to hire judges and other staff. 
While wellness courts have a positive impact in Indian country, there 
is a cost associated for this service, mainly the cost of staff.
    Although there have been challenges to work through in the wellness 
court system, I believe wellness courts adapt to meet the needs of each 
community by establishing more structure and accountability of 
offenders. There is no question in my mind that tribal wellness courts 
have had a positive and encouraging impact to communities in Indian 
Country and specifically in Leech Lake.
    S. 2205 would continue to help improve wellness courts and provide 
the added tools needed to be successful.
    This bill would also integrate the administration of other services 
that are essential to the success of those being treated including: 
mandatory periodic testing for each participant for the use of 
controlled substances, as well as provide substance abuse treatment for 
each participant, relapse prevention, health care, education, 
vocational training, job placement, housing placement, and child care 
or other family support services.
    In conclusion on behalf of myself and like-minded individuals in 
Indian Country, I appreciate the work committee members, bill authors, 
and staff have done to raise awareness and seek out additional 
resources to address this important issue. Thank you for the 
opportunity to testify today.

    The Chairman. Thank you very much, Judge Day. We appreciate 
your time with us today.
    I will now turn to Dr. Ahumada.

STATEMENT OF MARTIN M. AHUMADA, INTERIM PRESIDENT, DINE COLLEGE

    Dr. Ahumada. Good afternoon, Chairman Barrasso, Vice 
Chairman Tester and distinguished members of the Committee.
    My name is Martin M. Ahumada. Since October 15, I have been 
serving as the Interim President of Dine College, America's 
first tribal institution of higher learning.
    I appreciate the opportunity to provide testimony on the 
far reaching purpose of the Dine College Act of 2016. I want to 
thank Senators Flake, McCain, Udall and Heinrich for supporting 
S. 2564 related to this Act.
    This bill will uphold the treaty of 1868 between the United 
States and the Navajo people. Passage of the bill will ensure 
that the Navajo Nation and its people will have the right to 
self determination, improve the economic and social well being 
of the Navajo Nation through higher education and maintain the 
strength and distinct institutions of higher education that 
teach Navajo language, culture, traditions and history.
    Dine College employs approximately 300 professionals and 
serves 1,700 students across a vast 26,000 square miles of 
Navajo land spanning the States of Arizona, New Mexico and 
Utah. For many Navajo students exploring higher education 
opportunities, Dine is the only financially viable option, 
costing a full-time student only $660 per semester or $55 per 
student credit hour.
    Dine College is fulfilling its nation-building mission 
through key academic programs, community services and research 
initiatives that meet the economic, political, environmental 
and social development needs of the Navajo Nation. We are doing 
this by enhancing a Bachelor's program in Business 
Administration which prepares students to foster and manage the 
economic growth of their communities; by creating new Bachelor 
degree programs for the fall of 2018 in Biology, Psychology, 
Secondary Math Education, Secondary Science Education and 
Indigenous Public Health; and by cultivating the creation of 
new businesses and jobs in areas central to the Navajo way of 
life such as farming, livestock management, natural resources 
and the arts.
    We urge your support of the Dine College Act of 2016 to 
significantly expand and renovate facilities and to recruit and 
retain quality faculty and other key personnel. This will 
enable us to meet five critical needs. The first is to address 
the serious shortage of adequate instructional classrooms, safe 
laboratories, faculty offices and student housing.
    A recent GAO report highlighted the lack of health and 
safety inspections in BIE schools. We confront comparable 
challenges with our own campus facilities. For example, the 
historic Hatathlie building currently houses 11 classrooms 
serving a group of 300 students and faculty on any given day.
    At seven stories tall, it makes it the tallest building on 
the Navajo Nation. This building is structurally unsound and 
will require over $22 million to restore. A comparable amount 
of funding is needed now for a new building to relocate 
everyone.
    A second critical need is to recruit and retain high 
quality faculty by offering them housing as a key employment 
benefit. A third critical need is to meet head on the great 
need for college preparatory education, known as remedial 
education by many, in the Navajo Nation which will be a high 
yield social and economic investment in the Navajo people. This 
investment will mitigate unemployment and social detachment.
    Fourth, a critical need will be to provide education, 
research and community services that will combat crime and teen 
suicide, alcohol and drug abuse and diabetes.
    Fifth is to enable the youth of the Navajo Nation to learn 
and embrace the beautiful Navajo language and culture which are 
essential to developing positive self identity that will lead 
to success and pursuing further studies and forging new and 
successful careers.
    Your endorsement of this bill will enable us to both 
maintain and improve our programs and services and to serve as 
a world class model for innovation, for the preservation of 
language and culture and for overall nation building.
    We embrace the responsibility to be this model for 
indigenous colleges and universities across the United States 
and throughout the world. Passage of this act would both 
recognize Dine College as a symbol of Indian self determination 
and honor the birth of the TCU movement.
    On behalf of all the citizens of the Navajo Nation, I ask 
for your unwavering support for the Dine College Act of 2016.
    On this very day of April 13, in 1971 at 10 a.m. in the 
morning, the sacred planting of our college took place in which 
the grounds were anointed with songs and prayers. It is 
befitting that I am here in Washington, D.C. this day 
advocating for the college on such a historic day.
    Thank you for this opportunity to speak with you on such a 
sacred for us.
    [The prepared statement of Mr. Ahumada follows:]

Prepared Statement of Martin M. Ahumada, Interim President, DineCollege
Introduction
    Good afternoon Chairman Barrasso, Vice Chairman Tester, and 
distinguished members of the Senate Committee on Indian Affairs. I 
appreciate the opportunity to me to testify on the Dine College Act of 
2016. This unique piece of legislation on Indian higher education is 
rooted in the historic Treaty of 1868 between the United States of 
America and the Navajo Indian Tribe which provided funding for the 
education of the citizens of the Navajo Nation. The far-reaching 
purpose of the Dine College Act of 2016 is to honor the federal 
government's treaty obligations by ensuring that the Navajo Nation and 
its people have the right to self-determination; can maintain and 
strengthen distinct institutions of higher education that teach Navajo 
language, culture, traditions, and history; and can improve the 
economic and social conditions of the Navajo Nation and its people 
through higher education.
    My name is Dr. Mart!n Miguel Ahumada. I have had the privilege of 
serving as the Interim President of Dine College since October 2015. I 
find it a special honor to have this chance to address the Senate 
Committee on Indian Affairs regarding the Dine College Act of 2016 to 
benefit the very first tribal institution of higher learning 
established in the United States. This landmark institution is widely 
embraced-and vitally needed-as a role model for other Indigenous 
collegiate institutions across the United States and in other countries 
of the world. It is an honor to champion the Dine College Act of 2016 
which hopefully can open doors and positively impact similar indigenous 
institutions.
    In my career in higher education, which spans more than 35 years, I 
have worked with university and higher education ministries in 
different countries, with premier national and state commissions of 
higher education in the United States, with leading public and private 
universities, and with several U.S. federal agencies.
    On behalf of all the citizens of the Navajo Nation-and to honor our 
federal government's historic 1868 treaty with the Navajo People-I ask 
for your unwavering support for the Dine College Act of 2016. I applaud 
Senator Flake's sponsorship of Senate Bill 2564, which will modernize 
prior legislation for Dine College by providing (1) annual funding for 
the ongoing ``operation and maintenance'' of Dine College; (2) 
construction grants to Dine College in the amount of $2,000,000 for 
each fiscal year from 2017 through 2020; and (3) direct the Secretary 
of the Interior to submit to the appropriate Congressional committees a 
report on the results of a detailed survey and study of all capital 
projects and facility needs of Dine College.
Significance of the Dine College Act of 2016
    The Dine College Act of 2016 will enable this landmark institution 
to continue providing outstanding higher education services to the 
Navajo people-and to continue serving as a model and mentor for 
Indigenous institutions of higher education throughout the United 
States and in other countries. As the first tribally-controlled and 
accredited collegiate institution in the United States, Dine College 
serves a predominantly Navajo student population across the 26,000 
square miles of the Navajo Nation-spanning the states of Arizona, New 
Mexico, and Utah. Our main campus is located in Tsaile, Arizona, a 
branch campus in Shiprock, New Mexico, and four regional sites located 
in both of these states. For many students living on the Navajo Nation 
exploring post secondary opportunities, Dine College is the closest and 
most affordable option. It is not uncommon for our students to drive 50 
miles each way to attend classes. Despite the long distances, our 
enrollment numbers are increasing. Last academic year (AY14-15), our 
enrollment reached over 1,700 students and it is anticipated that next 
year's enrollment will near the 1,900 as we experienced three years ago 
(AY12-13). Below is a three-year enrollment trend chart.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Dine College was featured in the 2015's Best and Worst Community 
Colleges, an online study by WalletHub, https://wallethub.com/edu/best-
worst-community-colleges/15076/. WalletHub compared 670 community 
college institutions across the nation in four key measurements that 
includes Cost and Finance, Classroom Experience, Education Outcomes, 
and Career Outcomes. Dine College ranked number one in the Cost and 
Finance area among the community colleges in the United States for 
providing $55.00 per credit hour, the lowest per credit hour tuition 
making Dine College College an affordable choice. In the Career 
Outcomes, Dine College also ranked number one for graduating students 
with great jobs and leaving without student debt. Dine College, like 
most tribal colleges and universities, provides tribal members with a 
feasible opportunity for a meaningful, well paying career.
    Dine College offers General Education courses that provide students 
with a high-quality experience while earning Certificate as well as 
Associate and Bachelor degrees. Dine College has been strengthening its 
first two Bachelor of Arts programs, the first of which is in Business 
Administration and prepares students for positions in Tribal Management 
and Economic Development. The other program is in Elementary Education 
and prepares teachers who can develop Navajo Children's academic skills 
and cultural identities in both English and Navajo.
    Dine College is in the midst of establishing new bachelor's degree 
programs in Biology, Psychology, Secondary Math Education, and 
Secondary Science Education. It is also laying the groundwork for both 
a bachelor's degree program-and ultimately a master's degree program-in 
the increasingly important field of Indigenous Public Health.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Equally important, Dine College is designing and implementing 
multiple nation-building initiatives with an eye on creating new 
businesses and jobs in areas central to the Navajo way of life, 
including farming, livestock, natural resources, and the arts. By 
molding our institution to needs of the Navajo Nation, several unique 
programs have been created such as the Dine Environmental Institute, 
the Dine Policy Institute, the Dine College Dual Credit Program, the 
Dine College Radio Station (KXWR 92.1 FM), and the Navajo Language 
Academy, just to name a few.
    Dine College not only prepares students for the workforce but also 
generates solid career opportunities in academia. Dine College employs 
over 300 qualified personnel who genuinely care about the success of 
our Navajo students. The faculty and staff of Dine College have 
established an environment of encouragement and growth at Dine College.
Recommendations
    Mr. Chairman and distinguished members of the Senate Committee on 
Indian Affairs, in order to advance the work the work of the Navajo 
Nation through Dine College, we request your support of the Dine 
College Act of 2016 to modernize all prior federal legislation relating 
to Dine College.
    We recommend that: (1) funding be authorized and appropriated to 
meet Dine College's annual resource requirements for basic ``operations 
and maintenance,'' (2) construction grants be approved for Dine College 
in the amount of $2,000,000 for each fiscal year from 2017 through 2020 
(3) a directive be given to the Secretary of the Interior to submit to 
the appropriate committee of Congress a report on the results of a 
detailed survey and study of all capital projects and facility needs of 
Dine College; and (4) adequate funding is provided to the Secretary of 
the Interior to conduct the detailed survey and study of all capital 
projects and facility needs of Dine College.
    To date, funding for the construction grants and facilities study 
have never been appropriated.
    Prerequisite inventories were submitted to the Bureau of Indian 
Affairs by Dine College in 1979, 1988, and 1996, but no action was 
taken. Subsequent to April 2014, the College held several meetings with 
the Bureau of Indian Affairs, wherein consensus was achieved on the 
vital need to initiate a facilities study. Dine College maintains over 
580,000 square feet of building space across six different academic 
sites.
    Collectively, tribal leaders and members of Congress of the past 
four decades recognized the significance and important of a higher 
education institution within the boundaries of the Navajo Nation. With 
the anticipated increase in future enrollment, we can no longer wait to 
update and enhance Dine College.
    In closing, I urge your support of the Dine College of 2016 Act. 
With the passage of the Dine College Act of 2016, we will be enabled to 
continue fulfilling the noble goal of continuously improving our 
programs and services to make Dine College an exemplary higher 
education institution for the Dine People. We urge Congress to take 
this step forward to help fulfill the goals of the Treaty of 1868, and 
use this step forward as a model for other indigenous institutions.

    The Chairman. Thank you very much, Dr. Ahumada.
    I will turn now to Ms. Julie Roberts-Hyslop.

 STATEMENT OF JULIE ROBERTS-HYSLOP, VICE CHAIR, TANANA TRIBAL 
 COUNCIL; ACCOMPANIED BY: ROBERT CLARK, PRESIDENT/CEO, BRISTOL 
                        BAY AREA HEALTH 
                          CORPORATION

    Ms. Roberts-Hyslop. Honorable Senators, it is really an 
honor to be here today to testify on behalf of my village of 
Tanana, Alaska. It is located in the interior of Alaska.
    My name is Julie Roberts-Hyslop. I currently serve as the 
Vice Chair of our tribe and also, I am a tribal member.
    I am pleased to be here today in support of S. 2421, a bill 
sponsored by Senators Murkowski and Sullivan. I thank you for 
holding this important hearing to help expedite this passage.
    S. 2421 would require the transfer by warranty deed title 
to 11.25 acres of land that housed the hold hospital compound, 
a Native hospital that took care of all the people from all 
over Alaska for many years until it was demolished in the early 
1980s.
    Our plan in Tanana is to build a community wellness center. 
Because we lack clear title today to the land that it sits on 
where we want to house our wellness center, we are unable to 
begin the planning and construction of such a needed wellness 
center in our region.
    Tanana first needs the Indian Health Service to transfer by 
warranty deed title to this parcel of land. My written 
testimony goes into more detail regarding this transfer.
    S. 2421 will assure that the Native village of Tanana 
receives a title via warranty deed. A warranty deed would 
supersede a quit claim deed which IHS is currently preparing 
for this transfer. A warranty deed also supersedes any 
revisionary interest that would be imposed by a quit claim 
deed.
    S. 2421 also contains language that would insulate the 
tribe from liability for environmental contaminations that 
occurred on the land prior to the transfer. We have been 
cleaning up this particular piece of land through a contract 
with the Indian Health Service.
    We respectfully ask Congress to expedite consideration of 
this bill for passage before the end of this session of 
Congress.
    Thank you. I would be happy to answer any questions you 
have.
    [The prepared statement of Ms. Roberts-Hyslop follows:]

 Prepared Statement of Julie Roberts-Hyslop, Vice Chair, Tanana Tribal 
                                Council
    My name is Julie Roberts-Hyslop and I am the Vice Chair of the 
Tanana Tribal Council. I am pleased to testify before this Committee on 
behalf of the Tribe. We appreciate the opportunity to submit testimony 
that strongly supports the passage of Senate Bill 2421, as introduced 
by Senators Murkowski and Sullivan. We would also like to thank the 
senators for their support of House companion bill, H.R. 4289. This 
land transfer will allow the Tribe to advance its economic development 
plan to include this parcel of land that is located in the center of 
our community.
    The Tanana Tribal Council is the governing body to 1,460 tribal 
members and the village of Tanana is a predominantly Alaska Native 
rural community that is only accessible by plane or boat. Senate Bill 
2421 would require the Secretary of Health and Human Services to 
transfer Indian Health Service (IHS) property to the Tribe via warranty 
deed. The land transfer is essential to facilitating the future 
construction of a new community wellness clinic.
    Under the Self-Governance provisions of the Indian Self-
Determination and Education Assistance Act (ISDEAA), \1\ the Tanana 
Tribal Council has successfully worked with Tanana Chiefs Conference in 
carrying out a broad range of health programs in Tanana, Alaska. The 
ISDEAA and the Tribe's agreements with the IHS give the Tribe the right 
to acquire fee title to all federal property that the Tribe uses to 
provide health services to its tribal members. The IHS has been 
supportive and continues to work closely with Tanana on the land 
transfer.
---------------------------------------------------------------------------
    \1\ Indian Self-Determination and Education Assistance Act, Pub. L. 
93-638 (1975).
---------------------------------------------------------------------------
    The parcel of land that the Tribe is requesting to have IHS 
transfer is the site of a former IHS hospital that has since been 
removed. The original plot of land encompassed 20.56 acres. Under the 
Alaska Native Land Claims Settlement (ANCSA), \2\ 9.31 acres was 
transferred to Tozitna, Tanana's ANCSA Village Corporation. The Tribe 
has requested transfer of the remaining 11.25 acres.
---------------------------------------------------------------------------
    \2\ Alaska Native Claims Act (ANCSA), 43 U.S.C. 1601 (1971)
---------------------------------------------------------------------------
    IHS has begun work on transferring the parcel by quitclaim deed, 
however Senate Bill 2421 would expedite the transfer without the need 
for a quitclaim deed. While a quitclaim deed would transfer the 
grantor's interest in the property, it would not guarantee that the 
title is valid and would include prohibitive terms and conditions that 
would act as an obstacle to mortgaging, leasing, or otherwise 
transferring any interest in the property or making major changes or 
capital improvements to the property without first gaining permission 
from the IHS even when the Tribe uses its own funds for a project.
    As such, the Tribe would not benefit from a quitclaim deed in the 
same way it would benefit from a warranty deed. In fact, the quitclaim 
deed would deprive the Tribe of unencumbered and autonomous land 
ownership rights because property transferred under quitclaim would be 
treated as if it continued to be federally owned, allowing the IHS to 
have control over the Tribe's use of its property. Further, any breach 
of the covenants running with the land would result in an immediate 
reversion of title back to the government agency. A warranty deed would 
instead provide the Tribe with greater security in title as well as 
flexibility in how the property is used to carry out health service 
programs for our tribal members and in our efforts to leverage funding.
    Senate Bill 2421 at Section 2 requires the Secretary of Health and 
Human Services to transfer the parcel of land to the Tribe by warranty 
deed within 180 days of enactment. In addition, the conveyance of the 
property by warranty deed shall not: (1) require any consideration from 
the Tanana for the property; (2) impose any obligation, terms, or 
condition on Tanana; and (3) allow any reversionary interest of the 
United States in the property. The legislation also provides language 
to shield Tanana against any and all liability under Federal or State 
law for mitigation or other remedial action necessary by the presence 
of environmental contamination or hazards, including hazardous 
petroleum-related substances. The Secretary will retain any and all 
liability for environmental contamination in existence on the property 
prior to title transfer to Tanana. The bill includes language that 
provides the Secretary an easement to access the property as reasonably 
necessary to satisfy any retained obligation or liability. The 
Secretary must comply with the notice of hazardous substance activity 
and warranty requirements of the Comprehensive Environmental Response, 
Compensation, and Liability Act (CERCLA).
    We thank the Committee for holding a hearing on this important 
legislation to transfer via warranty deed 11.25 acres of land to the 
Native Village of Tanana. Consistent with federal policy and principles 
of self-governance, enactment of S. 2421 will enable our Tribe to 
exercise full ownership rights in the transferred property. We 
respectfully ask Congress to advance S. 2421 as soon as possible to 
accommodate a shorter session of Congress due to the election year. 
Thank you.

    Ms. Roberts-Hyslop. I would like to yield any of my time to 
Robert Clark of the Bristol Bay Health Corporation to testify 
if possible.
    The Chairman. That would be quite all right. Sir?

 STATEMENT OF ROBERT J. CLARK, PRESIDENT/CEO, BRISTOL BAY AREA 
                       HEALTH CORPORATION

    Mr. Clark. Thank you. You have my testimony.
    I might just add that what is different is I have a quit 
claim deed and I would like to go to a warranty deed, something 
that is more permanent.
    I have a building put up that should be occupied by 
October. In Alaska, you need to get everything covered up. 
Otherwise, you cannot do much work in the winter months. We are 
waiting for a first barge which should be showing up shortly.
    By having a warranty deed, we can have access to 
foundations, State dollars and private dollars. We have the 
Rasmuson Foundation willing to provide the furnishings for the 
clinic that again saves the government money and allows for a 
lot of leveraging and things like that which is part of what we 
believe 638 is all about.
    We were one of the first organizations in the State or 
Nation, I guess, to take over a total service unit. We have 
continued that operation since 1980.
    We were formed in 1973. We have been a successful 
organization and believe that this simply helps the process, 
helps us and allows us to provide better care for all our 
people.
    I stand for any questions and I agree with all the comments 
made by Julie.
    [The prepared statement of Mr. Clark follows:]

Prepared Statement of Robert J. Clark, President/CEO, Bristol Bay Area 
                           Health Corporation
    The Bristol Bay Area Health Corporation (BBAHC) is pleased to 
submit this testimony in support of S. 2421, legislation introduced by 
Senators Murkowski and Sullivan which would require the Secretary of 
Health and Human Services to transfer certain Indian Health Service 
(IHS) property to BBAHC by warranty deed. The property is critically 
important to BBAHC's construction and operation of a new free-standing 
dental clinic. The BBAHC is in the process of constructing a new, 
modern, up-to-date facility that will be available later this year to 
provide significantly more dental services to BBAHC's 8,000 member 
service population. We note that Representative Don Young has 
introduced a companion bill, H.R. 4289, and we thank our entire 
delegation for their support on this matter. Both bills also include a 
warranty deed transfer provision for the Tanana Tribal Council.
    BBAHC has for many years carried out a comprehensive health care 
delivery program at the federally owned Kanakanak Hospital compound in 
Dillingham. BBAHC has done so on behalf of its member villages in 
accordance with the Alaska Tribal Health Compact and Funding Agreements 
with the IHS under the Indian Self-Determination and Education 
Assistance Act (ISDEAA). These services include dental care.
    The ISDEAA and BBAHC's agreements with the IHS give BBAHC the right 
to acquire fee title to all federal property that BBAHC uses to provide 
these health services. BBAHC requested that IHS transfer legal title to 
a 1.474 acre parcel of land within the Kanakanak Hospital compound so 
that BBAHC could use non-IHS funds to construct a new, larger dental 
facility on the transferred parcel. While the IHS agreed to the 
transfer, IHS treated the transfer as a discretionary donation of 
excess property under the Federal Property and Administrative Services 
Act (FPASA) and GSA regulations. Using FPASA and GSA rules allows the 
IHS to transfer the property by quitclaim deed and include whatever 
terms and conditions IHS wants in the deed.
    The BBAHC reluctantly accepted the IHS quitclaim deed transferring 
title to the property in order not to miss last year's construction 
season. However, the quitclaim deed includes extensive terms and 
conditions that give IHS the right to approve mortgaging, encumbering, 
leasing, or otherwise transferring any interest in the property, or 
making major changes or capital improvements in the property. Any 
breach of these terms and conditions, such as not getting IHS 
permission for making changes in the property, triggers an immediate 
right of entry and reversion of title back to the IHS. These terms and 
conditions are characterized in the deed as covenants running with the 
land. Thus, for example, if BBAHC were to approach a bank for a 
construction or improvement loan, and as a consequence would have to 
enter into a deed of trust to secure the loan, IHS must give its 
permission. Even if BBAHC were to use its own funds or other third 
party funds, the quitclaim deed requires IHS permission for any major 
change or improvement in the property.
    IHS justifies its position by claiming that all transfers of 
federal property to ISDEAA contractors and compactors must be made 
under the FPASA and GSA rules. This position, however, is contrary to 
the GSA regulations at 41 C.F.R.  102-75.110, exempting transfers of 
real property from the FPASA and GSA rules if the transfer is 
authorized by a special statute that directs or requires an Executive 
agency to transfer or convey title to specifically described real 
property in accordance with the provisions of the statute.
    The ISDEAA is such a special statute. Sections 105(f) and 512(c) of 
the ISDEAA provide that the Secretary may donate excess property to 
Indian tribes and tribal organizations, ``except that'' title to real 
property furnished by the Federal Government for use in the performance 
of an ISDEAA agreement shall, unless requested otherwise, vest in the 
appropriate tribe or tribal organization. Thus, the ISDEAA requires the 
transfer of this specifically described property by vesting title in 
tribes and tribal organizations and specifically making this vesting of 
title an exception to the donation of excess property under GSA rules. 
S. 2421 is necessary to overcome IHS' insistence that these transfers 
be treated as discretionary donations of excess property under the 
FPASA and GSA rules.
    S. 2421 at Section 2 requires the Secretary of Health and Human 
Services to transfer the property for the new dental facility to BBAHC 
by warranty deed within 180 days of enactment. The transfer by warranty 
deed will supersede and render of no future effect the previous 
quitclaim to the property. Further, the conveyance of the property by 
warranty deed shall not: (1) require any consideration from the BBAHC 
for the property; (2) impose any obligation, terms, or condition on the 
BBAHC; and (3) allow any reversionary interest of the United States in 
the property. S. 2421 also includes language to protect BBAHC against 
any and all liability under Federal or State law for clean-up or other 
remedial action occasioned by the presence of environmental 
contamination or hazards, including petroleum-related hazardous 
substances.
    The Secretary will retain any and all liability for environmental 
contamination in existence on the property prior to the transfer of 
title to BBAHC. Language is included to provide the Secretary with and 
easement and access to the property as reasonably necessary to satisfy 
any retained obligation or liability of the Secretary. Finally, the 
Secretary must comply with the notice of hazardous substance activity 
and warranty requirements of the Comprehensive Environmental Response, 
Compensation, and Liability Act (CERCLA).
    There is precedent for S. 2421. Public Law 114-56, enacted on 
September 30, 2015, requires the transfer of certain property to the 
Yukon Kuskokwim Health Corporation using virtually the same language as 
S. 2421 except for the description of the property to be transferred. 
In addition, Congress has enacted property transfers via warranty deed 
from IHS to the Maniilaq Association (PL 112-263) and the Alaska Native 
Tribal Health Consortium (P.L. 113-68).
    We thank you for scheduling a hearing on this legislation to 
transfer via warranty deed the 1.474 acre parcel of land site of our 
dental clinic. We urge that action be expedited on this bill, as the 
clock is ticking on this election year shortened session of Congress.

    The Chairman. Thank you very much.
    I was curious, you talked about the first barge. I was up 
in Bethel a couple of weeks ago. Senators Murkowski, Cantwell 
and a bipartisan group were there. It did not seem like things 
were ready for the first barge to come in. When does it often 
happen?
    Mr. Clark. For three years now, we have not had any real 
winters. You have had more snow and winter than we have had. 
Something is drastically wrong with the atmosphere. The Earth 
is hurting. We are very nervous.
    The front of my property is the river and it has been 
running about three to six feet a year. In 50 years or so, we 
will be down on the bank unless we get that shored up. By now, 
I should have lots of ice still in the river. The ice is gone.
    I went to Anchorage for a meeting for a week and I came 
back and it was like summer. What is going on here? It has been 
really strange for several years. We get things in the fall and 
we get it in the winter because you cannot fly stuff in. It is 
just too expensive.
    The Chairman. I just noticed gasoline was over $5 a gallon.
    Mr. Clark. Yes.
    The Chairman. Thank you for being here.
    Senator Udall?
    Senator Udall. Thank you, Mr. Chairman.
    First of all, let me thank Director Black for your 
testimony on both of the bills that impact New Mexico and 
Arizona. We really appreciate the Bureau of Indian Affairs 
working with us on these pieces of legislation.
    Governor Garcia, I have a couple questions for you. I know 
you and others in the Pueblo government over the years have 
worked very hard to get to this point in terms of having 
success here. I want to commend the Pueblo's work. I thought 
you and the leadership worked very hard to help pull people 
together and get this done.
    Can you please explain a bit more how you reached agreement 
with the Corps of Engineers, how important it is for this 
Committee to act on this piece of legislation, and how long it 
is you have been waiting for this to happen, Governor Suina?
    Mr. Suina. First of all, the Corps of Engineers and the 
Pueblo have been working together quite nicely for the last few 
years. It has never been a problem with them, first of all, 
because the Corps really is concerned on the other side of the 
dam mostly but it is something that is fully supported by the 
Corps of Engineers. It has taken quite a while for us.
    As the Governor testified, it has been about 75 years this 
has been coming. Everything seemed to come together and with 
support from the Corps of Engineers and the Bureau of Indian 
Affairs, and even the State of New Mexico, I think we are in 
fine shape for this to happen.
    Senator Udall. Thank you very much. I know you were the 
former governor there and worked on this issue as well as 
Governor Garcia and many of the governors over the last 75 
years worked very hard on this.
    We appreciate the fact that you have worked with everybody 
and worked through the issues. Thank you for that.
    I am going to ask the next question of the interim 
President of Dine College.
    Dr. Ahumada, the college includes for facility 
construction. Can you explain to the Committee why this funding 
is important and talk a bit about the current state of the 
campus facilities?
    Dr. Ahumada. Absolutely, and thank you for the question.
    As a 45 year old institution, we have many buildings that 
are outdated. We have been doing a very good job over the last 
20 years of developing our capacities, our facilities and 
renovating the buildings but we have not been able to keep up.
    We do have I would say about 25 percent, at least a fourth 
of the facility needs, unmet. The funding for facilities will 
go primarily for classrooms. We need to expand our science labs 
and a number of our science classes in particular.
    We need to expand our facilities and other sites out to the 
city of Wind Rock. That is where the primary need is and where 
we would be allocating the new funds.
    Senator Udall. Thank you for that answer.
    Dine College has been very successful in offering high 
quality education in many areas. I think this helps form future 
Navajo teachers, leaders and others who will play an important 
role on the Navajo Nation.
    My understanding is that you are planning to establish some 
new programs. I was wondering if you could tell the Committee a 
bit about what would be a new Bachelor's degree and possibly a 
Master's degree in Indigenous Public Health.
    Dr. Ahumada. Absolutely.
    We are developing new baccalaureate degree programs, as we 
said, in Biology, Math Education, Science Education, and 
Psychology which is really big with our substance abuse 
interest to address that, and to work with our criminal 
development program.
    We also are working very hard to expand our Associate 
Degree in Public Health to not only a baccalaureate degree 
program but also a Master's degree in Indigenous Public Health. 
We have been working very closely with the University of 
Arizona, one of the leaders in the Country, on this for some 
time.
    We would have a program that would be of value throughout 
the United States and globally. We want to make sure that we 
meet the needs of the Navajo Nation in this area. We have made 
tremendous progress. We will negotiate an MOU with the 
university very soon in this area. Those are the main thrusts 
academically.
    Senator Udall. Thank you so much for your hard work at Dine 
College.
    Dr. Ahumada. Thank you.
    Senator Udall. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Udall.
    Senator Franken?
    Senator Franken. Thank you, Mr. Chairman.
    Judge Day, thank you again for coming to testify today and 
enlighten the Committee on the importance of tribal healing and 
wellness courts.
    As you discussed in your testimony, the wellness court uses 
traditional Indian ceremonies and other cultural activities to 
help people in recovery from drug and alcohol addiction. The 
program uses the unique culture of each band, of each tribe and 
promotes community cooperation.
    Can you talk, Judge Day, to the impact of using cultural 
ceremonies and activities on the recidivism rate and the rates 
of recovery? Can you share specific examples of individuals 
from Leech Lake?
    Mr. Day. Thank you, Senator. I will try.
    The answer is simple but not simple. The Anishinaabe people 
were given their way of life by the Creator. In order to live 
that life, which is to basically be a healthy person, there are 
certain things you have to do in certain times of your life.
    In the wellness court, we find oftentimes those 
participants have not had any of those milestones in their 
lives. When we introduce them to that particular part of their 
existence, then you see, not 100 percent of the time, but you 
often see that blossoming or blooming of that part of them that 
has been dormant come to life, come to the forefront.
    It does something that I cannot cite you to a book to read 
about but it blossoms in them and pulls something from them 
that just shows they now are feeling the strength of being a 
real person. I am now fully a human being and I am worth 
something.
    It gives them self esteem to go through the ceremonial 
steps they are supposed to go through in their lives. It is as 
simple as that but it is also complicated too.
    Senator Franken. I understand.
    In any 12-step program, there is a spiritual awakening. I 
believe there has been cultural trauma among Native people. 
They have had their culture taken away from them. As you say, 
the culture is so tied to the spirituality, it is no accident 
that of course a culturally sensitive program makes a 
tremendous amount of sense.
    Have you done data on recidivism?
    Mr. Day. We do have data and the two evaluations I talked 
about contains a lot of that information. I do not have exact 
numbers here in front of me but I do know those participants in 
wellness court have a better rate on the recidivism scale. They 
do not reoffend as often or as quickly and the results are 
better in just about all the categories measured in the ten 
most important key components.
    Senator Franken. Could we get the data you have from that?
    Mr. Day. Yes, you can.
    Senator Franken. I think that would be helpful.
    I just want to applaud you for what you do. Obviously we 
have a large addiction problem in our Native lands. This 
approach, to me, provides a tremendous amount of hope. Hope is 
fear that has said its prayers.
    Thank you.
    The Chairman. Thank you, Senator Franken.
    Senator Tester?
    Senator Tester. Thank you, Mr. Chairman.
    First of all, thank you all for your testimony. We 
appreciate it very much.
    Mr. Black, have you done an analysis of how many high 
hazard dams you have in Indian Country or that we have in 
Indian Country?
    Mr. Black. Yes, sir. I believe the number is somewhere 
around 137 high to significant hazard dams in our inventory.
    Senator Tester. How many of those are below par that have 
high potential for failure? They all have potential for failure 
but some are higher than others.
    Mr. Black. I do not have those numbers with me, but we do 
have a condition assessment report.
    I did want to clarify the high hazard and significant 
hazard dam classification is not necessarily a classification 
of the condition of the dam but the potential, if the dam were 
to fail, of what could happen.
    Senator Tester. I get you. The question I am asking then, 
with all the semantics aside, is how many dams of that 137 are 
in poor enough shape that they have a fair chance of failure?
    Mr. Black. That, I do not have with me.
    Senator Tester. Have you done an assessment of that, is the 
question.
    Mr. Black. We do have condition assessments. We are also 
undergoing right now a ten year process where we are going out 
and inspecting all of our dams and doing a thorough assessment 
of all of them.
    Senator Tester. The reason I want to explore this line of 
questioning is, when I was in the State legislature, there were 
a lot of high hazard dams. You are right, it is a 
categorization but there are also a lot of high hazard dams 
that have a high potential of failure with the potential loss 
of property and even human life.
    The question I have is where does dam safety and 
maintenance fall among the department's priorities for Indian 
Country? You have a lot of priorities so I do not expect it to 
be number one but it might be. Where does it fall?
    Mr. Black. I do not know if I could put on a scale where it 
stands. As you mentioned, we have so many priorities in Indian 
Country that trying to weigh one against the other sometimes 
gets to be extremely difficult. Any time that we are dealing 
with safety and something as critical as dams, it ranks very 
high in our eyes.
    Senator Tester. You mentioned that it should be a part of 
the discretionary budget because then you can do consultation 
with Indian tribes and shuffle money where it needs to go to do 
the most good. I do not want to put words in your mouth. Is 
that fairly correct?
    Mr. Black. I think that is fair, yes.
    Senator Tester. You have 137 dams. You get me the figure on 
how many have a reasonably high chance of failure. If this is 
not near the top or maybe I should word this differently. Why 
is not the department taking care of the dams already? Is it 
because you do not have enough money or there are other things 
of higher priority? Just be honest with me.
    Let me put it this way. If you do not have enough money to 
deal with the dam issue, it is very unfair for us to stand up 
here and hammer you on dams that are ready to fail. Where are 
we? We are in the middle of a budget process and 
appropriations. That is not this Committee but it is the one 
Senator Udall is the Ranking Member on. Where are we?
    Mr. Black. As I mentioned in our testimony, we did request 
an additional $2 million in fiscal year 2017.
    Senator Tester. Is that in the President's budget?
    Mr. Black. Yes, it is in the President's budget.
    Senator Tester. That would be adequate to address the 
problem?
    Mr. Black. No. Honestly, it would not. With the $500 
million backlog and deficiencies, it would take half of my 
budget to really begin to address this issue completely.
    Senator Tester. All right. Did you make that clear to the 
Interior Committee, that it was under funded even at $2 
million?
    Mr. Black. I do not know that we did, sir, to be honest 
with you. A majority of what we do is underfunded.
    Senator Tester. The ranking member on the Interior 
Committee is here and the chairman happens to sit to the right 
of Senator Barrasso. It is an opportunity for you to do that if 
you so choose.
    Mr. Black. As I said, all of our priorities are 
underfunded.
    Senator Tester. Let me go to Judge Day. By the way, Judge 
Day, the people behind you cannot see them, but you have some 
dynamite looking socks on. I just want to tell you that right 
now.
    You talked about potential savings, a positive investment. 
I did too. I have a different perspective than you as a 
policymaker here in the United States Senate but you are on the 
ground getting the job done.
    Could you flesh out for us where the savings come from?
    Mr. Day. It comes from a number of sources. It is primarily 
the savings of not having to put somebody in jail. That is 
number one. It also comes from those in wellness court whose 
original sentences were shortened because they completed 
wellness court.
    It comes because they are in recovery and are able to work 
and create income. It comes from the taxes on that income. That 
is four things I can think of right off the top of my head. 
That is the majority of the savings.
    Senator Tester. What about jail capacity? How is your jail 
capacity?
    Mr. Day. It is filled all the time. The jails are full.
    Senator Tester. Does this help alleviate some of the 
pressure on the prisons?
    Mr. Day. It helps a lot.
    Senator Tester. I think Senator Franken pointed out that 
you are the keeper of the family ceremonial drum and sweat 
lodge. That is a big deal and truly quite an honor. From a 
cultural standpoint, it seems to me that you have better 
insight to that than most, absolutely better than most non-
Natives but maybe better than most Natives.
    Mr. Day. Maybe in this room, but back at home, I am 
considered just an average Joe.
    Senator Tester. Could you talk about the positive impacts 
of traditional healing and what you are seeing to reduce 
recidivism?
    Mr. Day. Number one, we have the sweat lodge available for 
people who come in for healings, spiritual purification, and 
physical purification. In the sweat lodge, we also do other 
ceremonial things such as names and healing. We initiate new 
pipes and those kinds of things.
    The ceremonial drum is a big drum like a palala drum but it 
is not a palala drum which is more social. This is just for 
ceremonies and we feast those drums. We call it feasting those 
drums when we are having a ceremony. We feast those drums in 
the spring and the fall.
    The songs that are sung are healing songs that come from 
peoples' dreams. We have people participating in those 
ceremonial things.
    A number of us are pipe carriers. As a pipe carrier, you do 
not own that pipe but you are keeping it for the people, for 
the good of the people. When somebody gives you tobacco and 
asks you to do some kind of ceremony for them, you have to say 
yes, if it is possible you can do that.
    Sometimes people come to me and ask me for more than I can 
do. I will refer them to someone I know who is capable of doing 
that particular thing. We do what we can with what we have. We 
have different ways of doing these things.
    Senator Tester. Thank you for your work. I think in a time 
where budgets are crunched, budgets are always crunched, but if 
we can do things that are more effective and actually saves 
money, we ought to be taking a good look at that.
    I have one more question and it has nothing to do with 
anything that my staff wrote on the sheet of paper. This is to 
Dr. Ahumada.
    You had said to a previous Senator that you are working on 
a degree in Traditional Healing, is that correct?
    Dr. Ahumada. No.
    Senator Tester. Is that what you answered?
    Dr. Ahumada. No, it was Indigenous Public Health. We have 
had a certificate and Associate's in Indigenous Public Health.
    Senator Tester. Tell me the difference between indigenous 
public health and indigenous healing or just tell me what 
indigenous public health is.
    Dr. Ahumada. It is public health focusing on the indigenous 
communities. It focuses on the indigenous communities but takes 
in all the science and all the traditional study of public 
health as we know it around the world and applying it to the 
specific needs of indigenous communities.
    Senator Tester. That is in degree form, right, or is that a 
class?
    Dr. Ahumada. We are actually developing the program as a 
track, as a concentration.
    Senator Tester. It interests me because I think it has 
potential to maybe help us. Looking at the way we deal with 
courts is one form of healing and this is another. As my 
grandmother said, there are highways where the action is. You 
may be able to develop some action that we may be able to 
utilize from a policy standpoint.
    Dr. Ahumada. Thank you, Senator. We view that as one of the 
most promising of our academic initiatives.
    Senator Tester. It is interesting. Whether I understood the 
first time or not, it is still interesting.
    Thank you all very much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Tester.
    Mr. Black, I want to follow up what Senator Tester 
discussed, some of the earlier questioning in terms of the 
issue related to dams.
    In your written testimony, you stated, ``BIA has identified 
137 high hazard dams but only 34 of them have actually been 
evaluated.'' Of those evaluated, you found 14 dams were 
considered unacceptable risks. I was wondering what is an 
unacceptable risk dam?
    Mr. Black. I think that would depend upon what came out of 
the assessment. It could be certain conditions that would lead 
to a higher risk of failure on the dam and any type of 
deficiencies that may relate to that.
    The Chairman. The next question that comes to mind would 
be, is this something that can actually be repaired if there 
are adequate resources, or is this something where you are 
talking about replacement?
    Mr. Black. Again, I think that would be dependent upon the 
condition of the dam or what the exact deficiency was. There 
may be cases where we can go in and make repairs.
    As to what Senator Daines mentioned earlier regarding the 
Crow Dam, we are currently under design on that spillway. In 
that case, if we are able to design a fix for that spillway, we 
will not have to replace the entire dam.
    The Chairman. In your written testimony, you also indicated 
that BIA is responsible for 700 low hazard dams across Indian 
Country. The Indian Dam Safety Act, passed 22 or 23 years ago, 
was intended to prevent the loss of life and property from dam 
failure by improving the safety of dams.
    This Act requires an annual report which would include the 
list of the dams, the status and maintenance action plan. The 
staff had multiple requests. The Committee has not received any 
complete information on the BIA low hazard dams. Can you 
explain why we are having such a hard time getting that list 
and when we will be able to get that information?
    Mr. Black. I apologize that did not get to you before the 
hearing today. We do have people working on gathering all that 
information so that we can present it to you.
    The Chairman. We would appreciate it.
    The DRIFT Act is going to provide funding for this backlog 
of deferred maintenance for high hazard dams and that second 
category for low hazard dams. The bill is intended to address 
the backlog to help prevent the loss of life and property.
    If this deferred maintenance is not addressed for the low 
hazard dams, we are trying to determine with your staff what 
turns something from low hazard into high hazard and if we do 
not do the maintenance on the low hazard, is there a likelihood 
that low hazard dams will ultimately become high hazard and the 
potential that those would fail as the result of deferred 
maintenance?
    Mr. Black. My gut instinct is that there could be that 
potential for some of them. Some low hazard dams may have risk 
of failure but that does not necessarily put it into the 
classification of high hazard because that classification is 
based on what is the risk of life safety if this dam was to 
fail.
    If we have a low hazard dam that carries very little water 
behind it, if there are no houses or people at risk down below, 
it may still be a low hazard dam in poor condition.
    The Chairman. Thank you for that.
    There are no other members to ask specific questions of you 
but they may have written questions they will submit. If you do 
get a written question, I hope you would respond quickly. The 
hearing record will be open for two weeks.
    I want to thank each of you for being here today, for your 
time and your testimony.
    With that, the hearing is adjourned.
    [Whereupon, at 3:40 p.m., the Committee was adjourned.]

                            A P P E N D I X

                                          The Navajo Nation
Hon. John Barrasso,
Chairman, and
Hon. Jon Tester,
Vice-Chairman,
Senate Committee on Indian Affairs,
Washington. DC.
                             Re: Dine College Act (S. 2564)

Dear Chairman Barrasso and Vice-Chairman Tester:

    We respectfully request your support for The Dine College Ad of 
2016 (S. 2564), currently scheduled for a hearing on April 13, 2016. As 
the President and Vice President of the Navajo Nation, we strongly 
support the reauthorization of the Dine College Act 1978 through this 
bill to modernize prior legislation for operations. maintenance, and 
construction for the College.
    Dine College was established in 1968 as the first tribally-
controlled community college in the United States. Under the direction 
of an eight-member Board of Regents confirmed by the Nabik' iyat' i 
Committee of the Navajo Nation Council. Dine College has the 
responsibility to serve residents of the 26.000 square mile Navajo 
Nation which spans the states of Arizona. New Mexico and Utah. As a 
higher education institution, Dine College awards 17 associate degrees, 
four certificates and two bachelor degrees. It is also accredited by 
the Higher Learning Commission of the North Central Association of 
Colleges and Schools.
    In addition to the basic ``operations and maintenance'' funding, 
the bill addresses the urgent need for construction funding by 
authorizing a mere $2.000,000, over four years. for structural 
improvements for buildings over 48 years old.
    For nearly four decades Congress has provided the necessary funding 
for the Dine College. We encourage your support in upholding the Treaty 
of 1986 between the United States of America and the Navajo Tribe of 
Indians which explicitly provides for the education of the citizens of 
the Navajo Nation. We thank you for consideration of our request.
        Respectfully,
   Russell Begaye, President; Jonathan Nez, Vice President,
                                                 The Navajo Nation.
                                 ______
                                 
               National Indian Education Association (NIEA)
Hon. John Barrasso,
Chairman, and
Hon. Jon Tester,
Vice-Chairman,
Senate Committee on Indian Affairs,
Washington. DC.
      Re: Reauthorization of the Dine College Act (S. 2564)

Dear Chairman Barrasso and Vice-Chairman Tester:

    On behalf of the National Indian Education Association (NIEA), the 
oldest and largest Native organization representing over 2,500 Native 
educators, students, teachers, parents, and tribal leaders, I am 
writing to express our support for the reauthorization of the Dine 
College Act. This bicameral effort builds upon Congress' focus on 
supporting Native education in the 21st century. S. 2564 is a step in 
right direction to honor the fiduciary trust obligation the Federal 
Government has with tribes to provide parity in access and equal 
resources to Native education.
    The Dine College is the first tribally controlled college 
established to open their doors to Navajo students in postsecondary 
education. S.2564 is critical and seeks to ensure that the Navajo 
Nation and Navajo people:

        (1)  Exercise their right to self-determination

        (2)  Maintain and strengthen cultural based practices within 
        higher education institutions

        (3)  Improve their economic and social conditions through 
        higher education and postsecondary vocational training

    NIEA appreciates your hard work on funding critical educational 
programs for American Indian, Alaska Native, and Native Hawaiian 
students. We are asking for your continued support in ensuring that 
these programs are protected by funding them at the levels already 
approved by Congress.
        Thank you,
                                        Patricia Whitefoot.

                                  <all>
</pre></body></html>
